<html>
<title> - WHY WE SHOULD CARE ABOUT BATS: DEVASTATING IMPACT WHITE-NOSE SYNDROME IS HAVING ON ONE OF NATURE'S BEST PEST CONTROLLERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
WHY WE SHOULD CARE ABOUT BATS: DEVASTATING IMPACT WHITE-NOSE SYNDROME 
          IS HAVING ON ONE OF NATURE'S BEST PEST CONTROLLERS

=======================================================================


                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         Friday, June 24, 2011

                               __________

                           Serial No. 112-46

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
67-111                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Friday, June 24, 2011............................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     3
        Prepared statement of....................................     4
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Boyles, Justin G., Ph.D., Post-Doctoral Research Fellow, 
      Department of Ecology and Evolutionary Biology, University 
      of Tennessee, Knoxville....................................    43
        Prepared statement of....................................    45
    Chavarria, Dr. Gabriela, Science Advisor to the Director, 
      U.S. Fish and Wildlife Service, U.S. Department of the 
      Interior...................................................     5
        Prepared statement of....................................     7
    Fascione, Nina, Executive Director, Bat Conservation 
      International..............................................    24
        Prepared statement of....................................    26
    Gassett, Jon, Ph.D., Commissioner, Kentucky Department of 
      Fish and Wildlife Resources................................    16
        Prepared statement of....................................    18
        ``NOTICE TO KENTUCKY CAVE OWNERS'' submitted for the 
          record.................................................    22
    Pena, Jim, Associate Deputy Chief, National Forest System, 
      Forest Service, U.S. Department of Agriculture.............    11
        Prepared statement of....................................    12
    Youngbaer, Peter, White-Nose Syndrome Liaison, National 
      Speleological Society......................................    29
        Prepared statement of....................................    31
        Letter to Dr. Jeremy Coleman, White-Nose Syndrome 
          National Coordinator, dated December 26, 2010, 
          submitted for the record...............................    36

Additional materials supplied:
    ``Peer-Reviewed Published Papers on or Directly Related to 
      White Nose Syndrome''......................................    58
                                     



   OVERSIGHT HEARING ON ``WHY WE SHOULD CARE ABOUT BATS: DEVASTATING 
   IMPACT WHITE-NOSE SYNDROME IS HAVING ON ONE OF NATURE'S BEST PEST 
                             CONTROLLERS.''

                              ----------                              


                         Friday, June 24, 2011

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:02 a.m. in 
Room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Labrador, Wittman, and 
Bordallo.
    Dr. Fleming. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum. Good morning. Today, 
we are having a follow-up hearing on a subject this 
Subcommittee first examined in June of 2009. Since it was first 
discovered in caves west of Albany, New York, in 2006, the 
White-Nose Syndrome has killed more than one million bats. It 
has spread to 18 U.S. states, from Maine to Kentucky.
    Under Committee Rule 4(f), opening statements are limited 
to the Chairman and Ranking Member of the Subcommittee, so that 
we can hear from our witnesses more quickly. However, I ask 
unanimous consent to include any other Members' opening 
statements in the hearing record if submitted to the Clerk by 
close of business today. Hearing no objection, so ordered.

 STATEMENT OF HON. JOHN FLEMING, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Dr. Fleming. Despite a considerable amount of effort by six 
Federal agencies and various affected states, which have spent 
more than $16 million, we apparently are no closer to stopping 
this disease, which has devastated more than half of the 47 
species of bats native to America.
    Why is this hearing important? Bats consume vast amounts of 
insects, and according to the April edition of Science 
magazine, their value to United States agriculture is between 
$3.7 billion to $53 billion each year.
    In the United States, they pollinate more than 360 plants 
and are so effective in dispersing seeds that they have been 
called the ``Farmers of the Tropics.'' Also, certain bat 
species can capture from 500 to 1,000 mosquitoes in just one 
hour.
    A single colony of 150 big brown bats in Indiana has been 
estimated to annually eat nearly 2.3 million pest insects. We 
also know that the one million bats that have already died from 
the fungus would have consumed more than or between 660 and 
1,300 metric tons of insects each year.
    By losing these bats, farmers and timber harvesters now 
have to spend millions of additional dollars to buy pesticides 
to protect their crops and trees.
    As a doctor, I was interested in learning that some 80 
different medicines come from plants that need bats to survive. 
While it is reassuring to know that no human illness has been 
associated with exposure to infected bats or caves, it is 
important that we try to find out why this fungus is killing 
bats in the United States.
    Yet, apparently the same disease has not caused mass 
mortality in Europe. Although this disease has spread through 
bat-to-bat contact, the Fish and Wildlife Service, and the 
United States Forest Service have closed thousands of caves and 
abandoned mines in an effort to try to stop the spread of this 
disease.
    I am interested in finding out the results of these 
efforts, and whether prohibiting human caving activities has 
saved hibernating bats. I look forward to hearing from our 
distinguished witnesses on how we can effectively address what 
many experts are now calling the most precipitous wildlife 
decline in the past century in North America.
    Now, before I recognize the gentlelady from Guam, I will 
mention that we are probably going to have a vote in about 10 
minutes. We will try to get through our witnesses as much as 
possible.
    But I understand that it is probably one or two votes at 
the most, and so we will come right back immediately after 
voting, and pick up where we left off. With that, I am now 
pleased to recognize the gentlelady from Guam, Ms. Bordallo.
    [The prepared statement of Chairman Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Good morning, today, we are having a follow-up hearing on a subject 
this Subcommittee first examined in June of 2009. Since it was first 
discovered in caves west of Albany, New York in 2006, the White-Nose 
Syndrome has killed more than 1 million bats. It has spread to 18 U.S. 
states from Maine to Kentucky.
    Despite a considerable amount of effort by six federal agencies and 
various affected states, which have spent more than $16 million 
dollars, we are apparently no closer to stopping this disease, which 
has devastated more than half of the 47 species of bats native to North 
America.
    Why is this hearing important? Bats consume vast amounts of insects 
and according to the April edition of Science magazine, their value to 
U. S. agriculture is between $3.7 billion to $53 billion each year. In 
the United States, they pollinate more than 360 plants and they are so 
effective in dispersing seeds that they have been called the ``Farmers 
of the Tropics''.
    Also, certain bat species can capture from 500 to 1,000 mosquitoes 
in just one hour. A single colony of 150 big brown bats in Indiana has 
been estimated to annually eat nearly 1.3 million pest insects. We also 
know that the one million bats that have already died from this fungus 
would have consumed between 660 and 1,300 metric tons of insects each 
and every year. By losing these bats, farmers and timber harvesters now 
have to spend millions of additional dollars to buy pesticides to 
protect their crops and trees.
    As a doctor, I was interested in learning that some 80 different 
medicines come from plants that need bats to survive. While it is 
reassuring to know that no human illness have been associated with 
exposure to infected bats or caves, it is important that we tried to 
find out why this fungus is killing bats in the United States, yet 
apparently the same disease has not caused mass mortality in Europe.
    Although this disease is spread through bat-to-bat contact, the 
Fish and Wildlife Service and the U. S. Forest Service have closed 
thousands of caves and abandoned mines in an effort to try to stop the 
spread of this disease. I am interested in finding out the results of 
these efforts and whether prohibiting human caving activities.has saved 
hibernating bats.
    I look forward to hearing from our distinguished witnesses and how 
we can effectively address what many experts are now calling: ``The 
most precipitous wildlife decline in the past century in North 
America''.
    I am now pleased to recognize the gentlelady from Guam, Madeline 
Bordallo, who chaired the first comprehensive Congressional hearing on 
the White-Nose Syndrome, for any statement she would like to make on 
this important subject.
                                 ______
                                 

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE IN CONGRESS 
                   FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Thank you very much, Mr. Chairman, and I 
would like to say good morning and welcome to all of our 
witnesses. The White-Nose Syndrome is named for the striking 
fungal growth on the muzzles, the ears, the wings, and the 
tails of bats.
    Much remains unknown about this disease, which was first 
documented west of Albany, New York, in February of 2006. Over 
the last five years, White-Nose Syndrome has spread to at least 
16 states, and also to Canada.
    The mortalities caused by the White-Nose Syndrome are 
astonishing, reaching up to 99 percent in some caves and mines. 
Over one million little brown bats have been killed, likely 
contributing to a 78 percent decline in the calls of these bats 
in the night sky over the Hudson River.
    White-Nose Syndrome in bats has profound public health, 
environmental, and economic impacts. Bats are nature's best 
control of insect populations, as a single bat can eat its 
entire weight in insects in just one night.
    When not controlled, many insects spread disease and others 
are agricultural pests. A study by one of today's witnesses, 
Dr. Justin Boyles, estimated that this benefit provided by bats 
to the agricultural sector is between $3 billion to $53 billion 
per year.
    Bats with White-Nose Syndrome exhibit uncharacteristic 
behaviors, and emerge from hibernation during the winter, 
consuming fat reserves, which may result in starvation. 
Transmission of the disease is not fully understood, but is 
believed to be bat-to-bat, or transferred by humans who visit 
the affected caves.
    Some caves have been closed on Federal lands, although 
Federally managed caves account for only 34 percent of the 
known roost areas, while 60 percent are located on privately 
held lands.
    It is clear that there are still large gaps in our 
understanding of this disease. We must continue to support 
research about causes of and vectors for the spread of White-
Nose Syndrome, and on the effectiveness of potential control 
measures to better manage this disease, and ensure that the 
night sky is once again full of insect-hunting bats.
    Two years ago this Subcommittee held an oversight hearing 
on White-Nose Syndrome, and found a commendable amount of 
cooperation and coordination among Federal and State wildlife 
and land management agencies.
    The recent release of a national plan for assisting states, 
Federal agencies, and Tribes, in managing White-Nose Syndrome 
in bats provides a framework to continue this coordination, and 
I do look forward to hearing more from our witnesses today on 
the implementation, and on other recommendations on how to 
address this challenging disease. Mr. Chairman, I yield back.
    [The prepared statement of Ms. Bordallo follows:]

   Statement of The Honorable Madeleine Z. Bordallo, Ranking Member, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    White-Nose Syndrome is named for the striking fungal growth on the 
muzzles, ears, wings, and tails of bats. Much remains unknown about 
this disease, which was first documented west of Albany, New York in 
February of 2006. Over the last five years, White-Nose Syndrome has 
spread to at least sixteen States and Canada. The mortalities caused by 
White-Nose Syndrome are astonishing, reaching up to 99 percent in some 
caves and mines. Over one million little brown bats have been killed, 
likely contributing to a 78 percent decline in the calls of these bats 
in the night sky over the Hudson River.
    White-Nose Syndrome in bats has profound public health, 
environmental, and economic impacts. Bats are nature's best control of 
insect populations, as a single bat can eat its entire weight in 
insects in one night. When not controlled, many insects spread disease 
and others are agricultural pests. A study by one of today's witnesses, 
Dr. Justin Boyles [boils], estimated that this benefit provided by bats 
to the agricultural sector is between $3 billion to $53 billion per 
year.
    Bats with White-Nose Syndrome exhibit uncharacteristic behaviors 
and emerge from hibernation during the winter, consuming fat reserves, 
which may result in starvation. Transmission of the disease is not 
fully understood, but is believed to be bat-to-bat or transferred by 
humans who visit affected caves. Some caves have been closed on federal 
lands, although federally managed caves account for only 34% of the 
known roost areas, while 60% are located on privately held lands.
    It is clear that there are still large gaps in our understanding of 
this disease. We must continue to support research about causes of and 
vectors for the spread of White-Nose Syndrome, and on the effectiveness 
of potential control measures to better manage this disease and ensure 
that the night sky is once again full of insect-hunting bats.
    Two years ago, this Subcommittee held an oversight hearing on 
White-Nose Syndrome, and found a commendable amount of cooperation and 
coordination among Federal and State wildlife and land management 
agencies. The recent release of ``A National Plan for Assisting States, 
Federal Agencies, and Tribes in Managing White-Nose Syndrome in Bats'' 
provides a framework to continue this coordination and I look forward 
to hearing more from our witnesses today on its implementation and on 
other recommendations on how to address this challenging disease.
                                 ______
                                 
    Dr. Fleming. I thank the gentlelady, the Ranking Member, 
and I also want to congratulate her for having chaired the 
first comprehensive Congressional hearing on the White-Nose 
Syndrome.
    Votes have already been called. It is only one vote. So I 
am going to go ahead and release the Subcommittee to vote, and 
return immediately, and then we will begin hearing from our 
witnesses.
    I do appreciate your patience on this, but we won't have 
any further interruptions after this. We will be good for the 
remainder of the hearing.
    [Recess.]
    Dr. Fleming. The Subcommittee will come to order. I am 
addressing the witnesses now. Like all witnesses, your written 
testimony will appear in full in the hearing record, and so I 
ask that you keep your oral statements to five minutes as 
outlined in our invitation letter to you and under Rule 4(a)
    Our microphones are not automatic so please press the 
button when you are ready to begin. I also want to explain how 
our timing lights work. When you begin to speak, our Clerk will 
start the timer and the green light will appear. After four 
minutes, a yellow light will appear, and that is a signal to 
you to go ahead and begin to wrap up. When the red light comes 
on, that means that your time is up, your full five minutes. So 
we would certainly ask you to conclude with that sentence if at 
all possible.
    You may complete your sentence, but at that time I just ask 
that you stop. I would like to welcome today's witnesses. First 
of all, Dr. Gabriela Chavarria--I hope I am coming close to the 
correct pronunciation on that--Science Advisor to the Director 
of the United States Fish and Wildlife Service, accompanied by 
Dr. David Blehert, who is a Microbiologist at the National 
Wildlife Health Center, of the United States Geological 
Society, who will be available to answer questions.
    And Mr. Jim Pena, Associate Deputy Chief, United States 
Forest Service; Dr. Jon Gassett, Commissioner, Kentucky 
Department of Fish and Wildlife Resources; Ms. Nina Fascione, 
Executive Director, Bat Conservation International; Mr. Peter 
Youngbaer, White-Nose Syndrome Liaison, National Speleological 
Society; and Dr. Justin Boyles, Department of Ecology and 
Evolutionary Biology, University of Tennessee. Dr. Chavarria, 
you are now recognized for five minutes.

  STATEMENT OF DR. GABRIELA CHAVARRIA, SCIENCE ADVISOR TO THE 
            DIRECTOR, U.S. FISH AND WILDLIFE SERVICE

    Dr. Chavarria. Thank you, Mr. Chairman. Chairman Fleming, 
Ranking Member Bordallo, Mr. Wittman, I am Dr. Gabriela 
Chavarria, Science Advisor to the Director of the United States 
Fish and Wildlife Service, and I would like to also recognize 
with me Dr. David Blehert, with the National Park Service, and 
Dr. Jeremy Coleman, with the Fish and Wildlife Service.
    Thank you for the opportunity to update The Subcommittee 
about White-Nose Syndrome in bats, and the Department of the 
Interior's efforts to address this wildlife disease crisis. As 
you mentioned, White-Nose Syndrome is an emerging wildlife 
disease that was first recorded in 2007.
    But unlike a lot of the familiar wildlife diseases that we 
know of, like West Nile Syndrome, or Avian Influenza, the fungi 
that comes with the White-Nose Syndrome, Geomyces destructans, 
is a new species to science. So we were confronted with a 
totally new disease when it was first discovered.
    It was found in caves where bats hibernate during the 
winter, and it grows at low temperatures. Unlike other fungi, 
they found in the environment that it grows in living tissues, 
and it affects a lot of the bats that are hibernating.
    In infected hibernating bat populations, 80 to 100 percent 
of bats will die. Unlike most small mammals, bats have only one 
pup each year, and they only live 5 to 15 years. While it is 
challenging to estimate the number of bats skilled, or a 
percentage of bat loss to White-Nose Syndrome, losses have been 
significant in monitored caves with White-Nose Syndrome 
affected bats.
    The White-Nose Syndrome is now found from Canada to 
Tennessee. It has been confirmed in 16 states, and in four 
Canadian provinces. Evidence indicates that it is spread from 
bat to bat, and may be spread through human activity in caves 
and mines where bats hibernate.
    The role of bats in ecosystems as you both have mentioned 
is critical. It is very important. But the Department of the 
Interior two years ago when this disease was recognized started 
to lead a coordinated effort and respond together with the 
Bureaus within the Department of the Interior, the Fish and 
Wildlife Service, and Geological Survey, and National Park 
Service, and the Bureau of Land Management, the USDA, the 
Department of Agriculture, and other affected Federal agencies, 
affected states, the academic community, and private non-profit 
organizations.
    We assembled a team of a hundred experts that come from 
different partners and organizations, and that are working 
together to monitor White-Nose Syndrome. They conduct and 
assess relevant research, develop and carry out mitigation and 
conservation efforts, and conduct outreach through the national 
plan.
    The team of partners is working to identify the impact of 
White-Nose Syndrome on bat populations, and the ecosystem as a 
whole, the mechanisms by which the disease is transmitted, and 
the mechanisms through which it contributes to mortality in 
infected bats.
    The team is also cooperating to monitor the spread of 
White-Nose Syndrome, and to develop management and containment 
options for Federal State wildlife managers. The team of 
partners has developed science based approaches to addressing 
this disease within the framework of the national plan.
    We have established an executive committee that overseas 
the work of the partnership and facilitates the coordination. 
This executive committee is co-chaired by the United States 
Fish and Wildlife Service, and by the Association of Fish and 
Wildlife Agencies.
    The United States Geological Survey is the science branch 
of the Department of the Interior. It conducts or partners to 
conduct much of the research supporting our response to White-
Nose Syndrome.
    The National Park Service educates parks and visitors about 
the White-Nose Syndrome, and it has developed management 
recommendations for park units in infected or potentially 
infected areas.
    The Bureau of Land Management is an active partner. The 
Department works very closely with the recreational caving and 
cave research communities to improve the contamination 
protocols and cave access recommendations, and to limit the 
spread of the fungus through human activities.
    We have closed caves to prevent the spread and we 
understand and share concerns about the loss of recreational 
opportunities and tourism supported economies, because many of 
our lands serve these stakeholders, and we endeavor to find new 
ways to minimize such impacts.
    White-Nose Syndrome is the greatest challenge to bat 
conservation that we have ever faced. We are very happy to be 
here, and we are very happy that the Committee has a strong 
interest in this issue, and we will be happy to continue to 
collaborate, and I will be happy to answer any questions. Thank 
you.
    [The prepared statement of Dr. Chavarria follows:]

 Statement of Dr. Gabriela Chavarria, Science Advisor to the Director, 
    U.S. Fish and Wildlife Service, U.S. Department of the Interior

    Chairman Fleming, Ranking Member Sablan, and Members of the 
Subcommittee, I am Dr. Gabriela Chavarria, Science Advisor to the 
Director of the U.S. Fish and Wildlife Service (FWS). I am accompanied 
by Dr. David Blehert with the U.S. Geological Survey (USGS) National 
Wildlife Health Center. Thank you for the opportunity to update the 
Subcommittee on white-nose syndrome in bats, the National Plan for 
Assisting States, Federal Agencies, and Tribes in Managing White-Nose 
Syndrome (WNS) in Bats, which was released in May of 2011 and the 
Department of the Interior's (Department) role in addressing this 
problem.
    The sudden and widespread mortality associated with this disease 
has never before been observed in any of the more than 1,100 species of 
bats known to science. Since the Department first testified before the 
Subcommittee on this topic in 2009, significant progress has been made 
toward identifying and understanding the cause and ecology of white-
nose syndrome.
Background
    White-nose syndrome was first recorded in March of 2007 near 
Albany, New York. WNS is associated with greater than 90 percent 
mortality of hibernating bats in affected caves from the Northeast to 
the South and into the Midwest of the United States. It has also been 
confirmed in Canada. In some caves within its current range, close to 
100% of hibernating bat populations have died. Thus far, six bat 
species have been confirmed with the disease, including the federally 
endangered Indiana bat. The fungus associated with WNS has been 
detected on an additional three bat species, including the federally 
endangered gray bat.
    Affected bats may display a white powdery growth on their faces and 
many show tissue damage and scarring in their wings. The powdery growth 
and tissue damage is caused by a fungus from a group of fungi that is 
common in the soil environment. However, this particular species of 
fungus, Geomyces destructans, was not known to science until it was 
documented in association with WNS in 2008. It grows only in cold 
temperatures, and unlike other fungi found in bat hibernation sites, it 
invades living tissues of hibernating bats. When hibernating, bats 
lower their body temperature significantly, and may pack tightly 
together--two factors which seem to promote the spread of the fungus 
from bat to bat. Although the primary route of transmission is believed 
to be from bat to bat, WNS may be inadvertently spread from cave to 
cave by human activity in caves. Although the exact cause of mortality 
of affected bats is not yet fully understood, evidence to date suggests 
G. destructans is the likely cause. Dead bats are often found to be 
emaciated, and bats in affected caves have been observed exhibiting 
more activity than is normal during hibernation, including leaving 
caves on cold winter days. Since 2007, WNS has been confirmed in over 
190 sites in 16 states \1\ and 4 Canadian provinces.
---------------------------------------------------------------------------
    \1\ New Hampshire, New York, Vermont, Connecticut, Pennsylvania, 
Virginia, West Virginia, New Jersey, Massachusetts, Maryland, North 
Carolina, Ohio, Tennessee, Kentucky, Maine, Indiana.
---------------------------------------------------------------------------
    The species of bats thus far affected by WNS are insectivorous, and 
they all rely on hibernation as a strategy for surviving harsh winter 
conditions when their insect food is not available. Prior to 
hibernation, these bats build up fat reserves to sustain them through 
the winter. Maintaining a low body temperature during hibernation, just 
a few degrees above the temperature of their cave, allows them to 
survive the winter on their stored fat, which can be quickly depleted 
in only a few hours of non-hibernation activity.
    G. destructans has been observed to invade the skin and underlying 
tissue, particularly of the wings of affected bats, where it causes 
significant damage. Wing membranes represent about 85 percent of a 
bat's total surface area and play a critical role in balancing complex 
physiological processes, such as body temperature regulation, blood 
pressure, water balance, and gas exchange, as well as allowing bats to 
fly and to capture insect prey. Scientists are investigating how WNS 
interferes with these critical functions and how it contributes to the 
loss of body fat reserves in affected bats.
    For some small mammal species, a mass mortality event like that 
caused by WNS would not significantly affect the long-term 
sustainability of their populations. However, bats differ from most 
other small mammals in that they have long lives and reproduce slowly--
a combination that precludes rapid population growth and recovery. Most 
of the bat species currently affected by WNS live about 5-15 years and 
have only one offspring per year. Biologists are concerned that, even 
if WNS and its spread could be abated, it will take many decades for 
populations of WNS affected bat species to recover.
    The Department is concerned about the potential impact of WNS on 
bat populations, especially those species currently listed as federally 
endangered, due to the high mortality of WNS and its rapid spread. 
There are 25 bat species in North America that hibernate during the 
winter, and all are at risk for WNS. Of these, there are four species 
and subspecies of federally listed, hibernating bats, all of which 
hibernate in either caves or mines.
    Most recently, WNS was confirmed in Maine, Indiana, Kentucky, Ohio, 
Tennessee, and North Carolina, demonstrating its continued spread from 
Northeastern and Mid-Atlantic states to Southeastern and Midwestern 
states. These regions support much larger caves and populations of 
hibernating bats, including millions of individuals of several species. 
These populations include the majority of the remaining populations of 
the federally endangered gray bat and remaining populations of the 
federally endangered Virginia big-eared bat, of which there are only 
about 20,000 individuals remaining. It is possible that other federally 
listed bat species, such as the Ozark big-eared bat, may be impacted if 
the disease continues to spread. Also, significant mortality of more 
common species may threaten the stability and health of these 
populations. The FWS is currently reviewing the status of two bat 
species--the Eastern small-footed bat and the Northern long-eared bat--
in response to petitions to list them under the Endangered Species Act.
    The role of bats in larger ecosystems is not well understood, but 
bat species comprise about one-fifth of all mammal species in the 
world, making their loss potentially significant to the sustainability 
of other animals and the plants that share their landscapes. One 
million bats can consume up to 8,000 lbs of flying insects in one 
night, including pests like mosquitoes and moths. As predators of these 
insects, bats play an important role in protecting agriculture crops 
and forests and in reducing risk of human disease transmitted by flying 
insects.
    In addition to impacts on biological resources, WNS will have 
impacts on some local economies through reduced opportunities for 
tourists. Caves with bats are the primary attractions at many national 
park units, including Mammoth Cave National Park (Kentucky), Carlsbad 
Caverns National Park (New Mexico), and Timpanogos Cave National 
Monument (Utah), Lava Beds National Monument (California) and Ozark 
National Scenic Riverways (Missouri).G. destructans has been detected 
in four national park units: Delaware Water Gap National Recreation 
Area (Pennsylvania and New Jersey), Great Smoky Mountains National Park 
(Tennessee and North Carolina), New River Gorge National River (West 
Virginia), and Ozark National Scenic Riverways (Missouri).
    Cave closures and drastically reduced bat populations could impact 
the enjoyment of visitors who come to see them on national park units 
and other lands. The closure of caves could also reduce opportunities 
for recreational caving and could impact many caving organizations, 
clubs, and local grottos that rely on access to these resources. As 
caves and bat populations on federal lands are affected by WNS, gateway 
communities, outdoor recreation guides, and outfitters may experience 
loss of visitors and income.
U.S. Department of the Interior Response to WNS
    The Department is leading a cooperative and coordinated response 
among its bureaus, including the FWS, the National Park Service (NPS), 
the Bureau of Land Management (BLM), and the USGS, as well as the U.S. 
Department of Agriculture, the U.S. Department of Defense, and other 
affected Federal agencies; all states; provincial and federal Canadian 
agencies; the academic community; private nonprofit organizations; and 
other stakeholders. Through the FWS, the Department has assembled a 
team of experts from these agencies and stakeholders to address this 
disease. Today, more than 100 partners are working together to identify 
the impact of WNS on bat populations and the ecosystem as a whole, the 
mechanisms by which the disease is transmitted and the mechanism 
through which it contributes to mortality in affected bats. The team is 
also cooperating to monitor the spread of WNS and to develop management 
and containment options for federal and state wildlife managers.
    One of the team's priorities is to provide resource managers with 
management recommendations, based on the best available science, to 
control the spread and minimize the effects of WNS. To this end, the 
Department and its partners, including the U.S. Department of 
Agriculture, the U.S. Department of Defense, the Association of Fish 
and Wildlife Agencies, tribal agencies, and others have developed a 
National Plan to guide the collective response to the research and 
management of WNS.
    The National Plan focuses on seven elements through working groups, 
including:
        <bullet>  Communications
        <bullet>  Data and Technical Information Management
        <bullet>  Diagnostics
        <bullet>  Disease Management
        <bullet>  Epidemiological and Ecological Research
        <bullet>  Disease Surveillance
        <bullet>  Conservation and Recovery
    The National Plan also formally establishes two oversight 
committees with representation from Federal, State, and tribal resource 
management agencies. The National Plan for Assisting States, Federal 
Agencies, and Tribes in Managing White-Nose Syndrome in Bats is based 
on similar disease response plans that have effectively been 
implemented in the past (e.g. Chronic Wasting Disease), and builds upon 
the coordinated efforts to address WNS, initiated in 2008.
U.S. Fish and Wildlife Service
    The FWS is coordinating the Department's response to WNS, and 
continues to collect and distribute critical information to other 
Federal agencies, States, partners, and the public; to administer 
several of the working groups and/or sub-groups established through the 
National Plan; and to work with stakeholders to identify and carry out 
collaborative investigations, monitoring, and management actions. The 
FWS serves as the primary resource for up-to-date information and 
recommendations for all partners, such as important decontamination 
protocols for cave researchers and visitors and a cave access advisory 
that requests a voluntary moratorium on activities in caves in affected 
states to minimize the potential spread of WNS.
    The FWS has dedicated funding toward WNS in fiscal years 2007 
through 2011 for coordination, research, and state assistance. In 
addition to developing science-based protocols and guidance for land 
management agencies and other partners to minimize the spread of WNS, 
the FWS has funded numerous research projects to support and assess 
management recommendations and improve our basic understanding of the 
dynamics of the disease. These have included investigations into the 
transmission and etiology of the disease, the factors that influence 
the apparent differences in vulnerability of different bats to WNS, the 
genetic differences between samples of G. destructans from around North 
America and Europe, and the potential for species or individuals to 
develop resistance to the effects of the fungal infection. With funds 
provided by the FWS, for example, the U.S. Forest Service is developing 
DNA-based detection techniques to distinguish the pathogenic fungus 
from many closely related non-pathogenic Geomyces species in North 
American caves. As new data are collected and analyzed, the FWS has 
coordinated with partners to develop science-based approaches to 
addressing this disease within the framework of the National Plan. 
Information on WNS-related research projects is available at: http://
www.fws.gov/whitenosesyndrome/research.html.
    The FWS continues to work with and support states in identifying 
and monitoring bat hibernacula, surveying for WNS, and preparing 
response plans. This role is becoming increasingly complex as WNS 
continues to spread to new states and regions of the nation. The FWS 
will continue to monitor federally listed species impacted by WNS and 
to support states in monitoring and management of WNS in species under 
state jurisdiction through State Wildlife Grants and other programs.
U.S. Geological Survey
    The USGS, DOI's science bureau, has unique capabilities to address 
emerging wildlife diseases, including specialized facilities for 
diagnosing and researching wildlife diseases, as well as expertise in 
field studies of bats. Since 2008, researchers with the USGS National 
Wildlife Health Center and the Fort Collins Science Center, in 
collaboration with partners, established criteria for diagnosing WNS; 
identified and first documented the fungus, G. destructans; linked this 
newly identified fungus to the cause of the skin infection that is the 
hallmark of WNS; and developed rapid diagnostic tests for G. 
destructans. Additional work by USGS and research partners identified 
probable modes of disease transmission, proposed mechanisms by which 
WNS causes bats to die, confirmed the presence of viable fungus (G. 
destructans) in cave environments, and documented recovery of bats 
naturally infected with WNS. The USGS National Wildlife Health Center, 
along with many partners, continues to play a primary role in WNS 
research. Projects underway include studies to understand WNS 
transmission/pathogenesis/recovery, comparative genomic analyses to 
determine the origin of G. destructans, development of improved tools 
for molecular detection of G. destructans, and investigation into the 
microbial ecology of G. destructans in bat hibernacula.
    In order to fully implement the National Plan, USGS is assessing 
its capacities to most effectively manage WNS, including better methods 
of detecting the disease early, training personnel to conduct active 
field surveillance and sample collection, increasing diagnostic testing 
of field samples, and additional ecological field research aimed at 
providing the science-based guidance needed by state and federal 
agencies managing this devastating disease. Improved diagnostics, 
surveillance, and research will contribute to a better understanding of 
how WNS spreads and will help to identify weak links in the disease 
cycle that can be exploited to manage and control WNS.
National Park Service
    The National Park System contains 394 national park units 
comprising approximately 84 million acres. Nearly one in four national 
park units have caves, and one in three units contain mines that can 
provide habitat for bats. System-wide, all 45 species of bats in North 
America occur in national park units, including seven species that are 
federally listed as threatened or endangered, and numerous others that 
are listed through state laws as threatened or endangered.
    The NPS comprises one of the largest systems for informal learning 
in the world, and it educates millions of visitors about cave 
ecosystems, bats, and the potentially devastating impacts of WNS. 
Commercial cave operations in parks, such as Mammoth Cave and Carlsbad 
National Parks, remain open. NPS guidance recommends that access to 
caves requires a permit or tour ticket, which has enabled NPS to be 
proactive in minimizing the risk of visitors in spreading WNS. Visitors 
are screened prior to cave entry and gear is disinfected when 
necessary. The NPS develops guidance for parks through a working group 
comprised of veterinarians, managers, and ecologists from across the 
national park system. In addition, NPS continues to work with multiple 
partners to investigate WNS and its impacts on bat populations by 
providing access to sites, samples for analyses, and assisting planning 
for coordinated response.
Bureau of Land Management
    The BLM, responsible for managing more than 245 million acres of 
public lands, is working to better understand and prevent the spread of 
WNS. The BLM was an active participant in the recently released 
national plan and is now focused on plan implementation. BLM Field 
Offices have been instructed to consider restricting access to caves 
and abandoned mines on BLM-administered lands and to use a targeted 
approach to closure that prioritizes sites with important bat 
resources. Prior to the completion of the 2011 national plan, the BLM 
in New Mexico closed 28 caves to public visitation in an effort to 
reduce the threat of WNS to bats. The BLM issued policy to encourage 
the continued engagement of external stakeholders to prevent or contain 
the spread of WNS including additional cave and abandoned mine closures 
in areas with important bat resources.
Limiting Potential for Human Transmission 
     The Department is working closely with the recreational caving and 
cave research communities to develop and improve decontamination 
protocols and cave access recommendations to prevent potential spread 
of the fungus through human activities. A decontamination protocol team 
has been formed, consisting of participants from across state and 
federal agencies, and the cave and karst research community, and the 
team is working to maintain consistency in methodology while 
incorporating the latest procedures. In March 2009, the FWS issued an 
advisory recommending voluntary suspension of caving activities in the 
states with affected bats, as well as in the adjoining states. In 
addition, the FWS has developed guidelines for scientists working in 
hibernacula to take precautions to avoid spreading the disease. The NPS 
has closed ``wild'' caves and mines in several units of the National 
Park System, although large, commercial caves in national park units 
remain open at this time. More closures may occur in response to the 
further spread of WNS. Several states have closed caves on lands under 
their management, including Indiana, Kentucky, and Wisconsin. Wisconsin 
has also designated G. destructans as an invasive species, making its 
transport an act which can be prosecuted under state law. The National 
Wildlife Refuge System (Refuge System) under FWS management includes 
lands with significant bat hibernacula, including those of the 
federally listed gray bat. All caves and abandoned mines on Refuge 
System lands have been closed to public entry to protect wildlife, 
including bats, from human disturbance.
Conclusion
     White-nose syndrome remains the greatest challenge to bat 
conservation we have ever faced. The Department is dedicated to 
continuing its coordination of research and response to WNS and its 
impact on bat populations. Through ongoing efforts to improve 
diagnostic techniques, to expand disease surveillance, and to enhance 
research efforts, we hope to continue to further our understanding of 
WNS to identify weak links in the disease cycle that can be exploited 
to manage and control this devastating wildlife disease. We also hope 
to refine and improve the processes and framework through which we 
address and manage similar wildlife health crises. The Department 
appreciates your interest in WNS and our collective efforts to address 
it. We look forward to working with you to slow the spread of this 
disease and to mitigate its impacts on bat populations.
    Thank you for the opportunity to testify before you today. I would 
be happy to answer any questions that you or the committee members 
might have.
                                 ______
                                 
    Dr. Fleming. Thank you, Dr. Chavarria, and thank you for 
your testimony. Next, we have Mr. Pena. You are now recognized, 
sir, for five minutes.

        STATEMENT OF JIM PENA, ASSOCIATE DEPUTY CHIEF, 
                      U.S. FOREST SERVICE

    Mr. Pena. Good morning, Mr. Chairman, and Members, thank 
you for the opportunity to testify this morning. The subject of 
White-Nose Syndrome is important to forest managers, wildlife 
managers, agricultural producers, and members of the public.
    The Forest Service is contributing to the larger effort to 
better understand White-Nose Syndrome, and is playing a role in 
controlling the spread of White-Nose Syndrome to hibernation 
sites in caves, and in abandoned or inactive mines.
    The mission of the Forest Service is to sustain the health, 
diversity, and productivity of the Nation's forests and 
grasslands, and to meet the needs of present and future 
generations.
    This mission includes sustaining the health, diversity, and 
productivity of many species that uses the Nation's forests and 
grasslands as habitat, including bats. I am going to focus my 
remarks on what we are doing to try and coordinate and 
collaborate, as opposed to rehash a number of the science 
topics.
    And so the coordination and cooperation among all parties 
involved in addressing White-Nose Syndrome is critical to 
arrest the spread of White-Nose Syndrome. The Forest Service is 
committed to full partnership and cooperation with other 
Federal, state, Tribal, wildlife management agencies, 
universities, industrial and non-industrial private forest 
owners, and non-government organizations such as Bat 
Conservation International, and the National Speleological 
Society.
    The Forest Service has been a cooperator in the development 
of a White-Nose Syndrome Response Plan, and has served on 
White-Nose Syndrome working groups, and is actively involved in 
the development of several parts of the implementation plan.
    There is evidence to suggest that humans can spread White-
Nose Syndrome from cave to cave on their gear and equipment, 
and in an attempt to slow the spread of White-Nose Syndrome, we 
have closed nearly all caves, and abandoned or inactive mines 
in the Southern, Eastern, and Rocky Mountain regions.
    Exceptions to the close orders are for research and 
monitoring, law enforcement, research, search and rescue 
operations, and to any cave that is specifically posted as 
open.
    We implemented these closures because we observed the 
White-Nose Syndrome jump from New York to Southwest Virginia in 
one winter, and the next winter the fungus that causes White-
Nose Syndrome was detected in the Oklahoma Panhandle, a far 
greater distance than bats could travel in such a short time 
frame.
    There is no known cure for White-Nose Syndrome, and so we 
must rely upon trying to limit disease spread between 
geographic regions and using decontamination procedures. Our 
cave closures may have slowed the westward spread, but it is 
likely too early to tell.
    By acting now, we hope to substantially delay the westward 
spread enough for science to inform us on more effective ways 
to manage and contain the fungus. Given growing concerns over 
the viability of bat populations and the awareness of the role 
of bats in maintaining healthy ecosystems, the Forest Service 
research and development has established bat research 
throughout the United States.
    In the past three years, we have expanded research to 
address challenges posed by the White-Nose Syndrome. Our 
current research efforts are aimed at understanding the 
pathogen associated with White-Nose Syndrome, including 
potential biological control.
    Planning for conservation and recovery of affected bat 
populations by evaluating populations genetics and viability, 
assessing and quantifying the economic and ecological 
importance of bats to forests and agricultural systems, and 
finally assessing bat habitat requirements, and effects of 
forest management on bats.
    The Forest Service understands the impacts closures are 
having and will continue to have on the recreating public. We 
will continue evaluating these decisions as new information and 
science becomes available, with the intent of balancing greater 
access to caves, while striving to maintain healthy bat 
populations.
    In conclusion, we are responding to the serious threat 
populations posed by the White-Nose Syndrome. To further the 
conservation and management of vast and diverse habitat on our 
national forests and other lands, the Forest Service is 
committed to cooperation and partnership with Federal, state, 
Tribal, and non-government organizations. I would be happy to 
take any questions at this time.
    [The prepared statement of Mr. Pena follows:]

            Statement of Jim Pena, Associate Deputy Chief, 
 National Forest System, Forest Service, U.S. Department of Agriculture

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify before you today on bat white-nose syndrome. The 
subject of white-nose syndrome is important to forest managers, 
wildlife managers, agricultural producers, and members of the public. 
This hearing is timely because white-nose syndrome is an emerging 
disease of cave dwelling species of bats that is both perplexing and 
devastating.
    The Forest Service is very concerned about white-nose syndrome and 
the future of bats in the United States and North America. White-nose 
syndrome (WNS) is a disease believed to be caused by a fungus recently 
identified as Geomyces destructans, which is associated with mass 
mortality of several bat species at hibernation sites in the New 
England, Mid-Atlantic and northern Appalachian States. Since our 
previous testimony on June 4, 2009, WNS has continued to spread to the 
north, south, and west. WNS has now been confirmed in 16 states 
stretching from Maine to west Tennessee, and 4 Canadian provinces. DNA 
from Geomyces destructans, the fungus that is associated with WNS, has 
been confirmed on a bat in Western Oklahoma, although the bat lacked 
the pathological invasion of the skin that is characteristic of the 
disease.
    Once introduced into a cave or abandoned and/or inactive mine, WNS 
has the potential to kill more than 90 percent of the hibernating bats 
(Blehert et al. 2009 Science Vol. 323 pg. 227). It is estimated WNS has 
killed more than 1 million bats during the last four years. Since 2007, 
when WNS was first documented in New York, populations from six bat 
species, including little brown, big brown, northern long-eared, 
eastern small-footed and tri-colored bats, as well as the endangered 
Indiana bat, have suffered mortality from WNS. DNA from the fungus has 
also been identified on three additional species, the southeastern bat, 
the cave bat, and the endangered gray bat, but no mortality or 
pathology has been documented among these species to date.
    The Forest Service can contribute towards the larger effort to 
better understand WNS, and can play a role in controlling the spread of 
WNS to hibernation sites in caves and abandoned and/or inactive mines. 
The mission of the Forest Service is, ``to sustain the health, 
diversity and productivity of the Nation's forests and grasslands to 
meet the needs of present and future generations.'' This mission 
includes sustaining the health, diversity, and productivity of the many 
species that use the Nation's forests and grasslands as habitat, 
including bats.
    Declining bat populations diminish the integrity of our forest and 
grassland ecosystems. The continued loss of bats in forested ecosystems 
could have ecological and economic impacts. Because bats are primary 
predators of night-flying insects, a significant decline in bat 
populations could contribute to larger insect pest populations, a 
possible decrease of agricultural crop production, and a potential 
decline in forest health. Increases in insect pest populations could 
lead to an increase in the perception of the need for pesticides, which 
would have both environmental and economic consequences (Kunz et al. 
2011). The value of bats to agriculture was recently estimated to be 
$23 billion per year (Boyles et al. 2011, Science Vol 332 pages 41-42). 
The strategy to prevent WNS must be a multi-pronged one and involve 
strategies in both affected and currently unaffected regions.
    Coordination and cooperation among all parties involved in 
addressing WNS are critical to arrest the spread of WNS. The Forest 
Service is committed to full partnership and cooperation under the 
National Plan for Assisting States, Federal Agencies, and Tribes in 
Managing White-Nose Syndrome in Bats, along with the Department of the 
Interior (U.S. Fish and Wildlife Service, National Park Service, U.S. 
Geological Survey, and Bureau of Land Management), State and Tribal 
wildlife management agencies, universities, industrial and non-
industrial private forestland owners and non-governmental 
organizations, such as Bat Conservation International and the National 
Speleological Society. The Forest Service has been a cooperator in the 
development of the National WNS Response Plan and is actively involved 
in several parts of the implementation plan. We will continue to assist 
in the cooperative effort. Cooperative efforts include monitoring the 
spread of WNS,, epidemiology and isolation procedures to better 
understand and control the disease, and cave and mine management in 
order to reduce the spread of WNS to unaffected areas and regions of 
the United States.
THE ROLE OF THE NATIONAL FOREST SYSTEM
    The Eastern and Southern Regions of the National Forest System have 
adopted an appropriately aggressive response to the threat posed to 
bats by WNS. This includes, starting with the FY2009 Budget, specific 
budget direction to address bat species conservation relative to WNS in 
the Forest Service. There are approximately 24 million acres of 
National Forest System lands in the Eastern and Southern Regions of the 
Forest Service with approximately 2,000 caves and abandoned and/or 
inactive mines that serve as bat hibernation sites. Several species of 
bats listed as endangered by the U.S. Fish and Wildlife Service under 
the Endangered Species Act use these sites, including the Indiana bat, 
gray bat, Virginia big-eared bat, and Ozark big-eared bat. It is in 
these sites where WNS mortality is most evident. White-nose syndrome 
has not yet been documented in populations of migratory bat species 
that hibernate in trees or forest leaf litter.
    For the Eastern Region of the Forest Service, WNS is confirmed in 
an abandoned and/or inactive mine in the Green Mountain National Forest 
(Vermont), in the Wayne National Forest (Ohio), and in caves in West 
Virginia's Monongahela National Forest and Indiana's Hoosier National 
Forest. In the Southern Region, WNS has been confirmed in Virginia on 
the George Washington and Jefferson National Forests, as well as in the 
National Forests in North Carolina. Of significant concern is the 
confirmation of WNS in the privately owned Hellhole Cave, in West 
Virginia, which is designated critical habitat for both the Indiana bat 
and the Virginia big-eared bat--both Endangered Species. Hellhole Cave 
is habitat for approximately 45 percent of the known population of 
Virginia big-eared bats and more than 100,000 little brown bats, the 
species hit hardest by WNS.
    If we fail to contain WNS, there could be a rapid and precipitous 
population decline for many bat species. With discovery of WNS in three 
counties in Indiana, there is great concern about the fate of the 
endangered Indiana bat. Nearly 50 percent of Indiana bats hibernate in 
Indiana and all are susceptible to WNS. Two recent and independent 
studies in New England determined a 73 percent overall decrease in 
summer bat activity (Brooks 2011, Biodiversity and Conservation, 5-
pages, online; Frick et al. 2010, Science 679--682). Therefore, it is 
critical that bat hibernation locations are isolated from Geomyces 
destructans. There is no known cure for WNS, so we must rely upon the 
basic principles of epidemiology, which includes trying to limit 
disease spread between geographic regions and using decontamination 
procedures when visiting hibernacula.
Forest Service Cave and Mine Closures
    There is evidence to suggest humans can spread WNS from cave to 
cave on their gear and equipment (Blehert, et al. 2011, Microbe: 267--
277). This includes cavers as well as resource managers. In an attempt 
to slow the spread of WNS, the Forest Service has closed nearly all 
caves and abandoned and/or inactive mines in the Southern, Eastern, and 
Rocky Mountain Regions. The Forest Service acted because we observed 
WNS jump from New York to southwest Virginia in one winter. The next 
winter, DNA from the fungus that causes WNS was detected in Woodward 
County, in the Oklahoma panhandle, a far greater distance than bats 
could travel in such a short time frame. The closure orders are crafted 
to reduce concerns that they would deny access for Tribal rights and 
ceremonies by allowing requests for Tribal ceremonies to be authorized 
by permit on a case-by-case basis. Our Tribal partners are supportive 
of our efforts to slow the spread of WNS.
    Exceptions to the closure orders are for research and monitoring, 
law enforcement, search and rescue operations, and any cave 
specifically posted as open. The Forest Service has been coordinating 
with the National Park Service on decontamination protocols for sites 
that are not subject to the closure orders. We are implementing the 
same decontamination protocols as Mammoth Cave National Park to ensure 
that cave visitors, including researchers and managers, do not spread 
WNS. The protocols include the use of specific clothing and equipment 
for each individual cave and abandoned and/or inactive mine.
    Because there are critical bat hibernating sites in the Midwest and 
West, we are very concerned about the continued western spread of WNS 
and what we can do, working with partners, to enact proactive measures 
now, rather than waiting until WNS spreads to currently unaffected 
areas in the western United States. Opportunities exist to implement 
proactive habitat management monitoring and surveillance activities now 
in areas to which WNS has not yet spread. The hope is that acting now 
will substantially delay the westward spread, in enough time for the 
science to inform increasingly effective ways to manage and contain the 
fungus. In addition to the closures already mentioned, a response plan 
has been finalized for New Mexico which calls for targeted closure of 
caves determined to have significant bat roosts. In Arizona, a draft 
Response Plan has been prepared that would institute a similar 
approach. It is expected that the Arizona plan will be finalized 
sometime this summer. Closure decisions are also pending for the 
Northern and Intermountain Regions. These regions are working with 
other federal and state agencies to assess risk of WNS across the 
landscape, prioritize monitoring and surveillance activities, and adopt 
adaptive management approaches well ahead of WNS spread into those 
areas.
Management of National Forests
    Bats need healthy forests and healthy forests need bats. Other than 
implementing the cave and abandoned and/or inactive mine closure order, 
the best thing we can do to conserve bats is to manage for healthy 
forests. While the national forests are approximately six percent of 
the forested lands in the Eastern and Southern U.S., they play a 
critical role in conservation of all species. We are using research 
findings to develop management strategies to benefit bats. The 
objective is to create suitable roosting and foraging habitat across 
the landscape in the quantities and patterns that mimic natural 
disturbance regimes, in the hopes of restoring habitat conditions for 
all species (Perry et al. 2008, Journal of Wildlife Management 72: 
913--925; O'Keefe et al. 2009, Forest Ecology and Management 1757--
1763; Hayes and Loeb 2007, pages 207--235 in Lacki et al. editors, Bats 
in Forests: Conservation and management, John Hopkins University Press 
329 pp). The Eastern and Southern Region national forests are ideally 
suited to contribute to large forested landscape ecosystems. There is a 
significant but discontinuous corridor of national forests and parks 
from northern Georgia to New Hampshire. If we can retain healthy bat 
populations on national forests and parks, the corridor could serve as 
a conduit to repopulate bat populations in areas decimated by WNS. This 
assumes our ability to arrest the spread of WNS; that the bats develop 
some resistance to it; or a method is found to address the fungus that 
presumptively causes WNS.
    There may be potential to increase our management efforts to 
develop suitable habitat at an accelerated rate. There is potential to 
increase adaptive management strategies in cooperation with research to 
enhance suitable habitat while monitoring the effectiveness of these 
treatment strategies. As mentioned earlier, the Forest Service is also 
exploring, with several other federal and state agencies, the potential 
for a broad-scale collaborative effort in the West to prioritize 
monitoring and implement management aimed at slowing and halting the 
westward spread of WNS.
FOREST SERVICE RESEARCH & DEVELOPMENT (R&D) ROLE IN BAT HABITAT 
        RESEARCH
    Given growing concerns over the viability of bat populations and 
awareness of the role of bats in maintaining healthy ecosystems, the 
Forest Service Research and Development Deputy Area has established bat 
research throughout the United States. In the past three years, Forest 
Service has expanded this research to address the challenges posed by 
WNS in four areas:
        <bullet>  WNS-related declines, assessment, and control;
        <bullet>  Population genetics and population viability;
        <bullet>  Basic habitat requirements and effects of forest 
        management on bats: and
        <bullet>  Economic and ecological importance of bats.
    Forest Service scientists are internationally recognized for their 
expertise in identifying fungi through DNA fingerprinting. Their 
expertise was responsible for development of DNA detection methods for 
screening cave soils and debris for the pathogen. These scientists are 
currently developing genetic techniques that can be used in the field 
to detect the pathogen in the environment or in infected bat tissue 
more accurately. This advance will save weeks in response time by 
enabling scientists and managers to identify the pathogen on site in 
the field.
    Forest Service scientists are also evaluating the potential for 
biological controls of the fungus. By testing naturally occurring 
microflora from healthy bats, they hope to find a microbial species 
that will reduce the ability of G. destructans to destroy bat skin 
cells.
    As part of Forest Service population viability research, scientists 
are developing viability models for Indiana bat to estimate population-
wide impacts of current and potential future mortality. To date there 
is no indication of innate bat immunity to the disease. Modeling the 
possible trajectories of declining populations should provide 
information needed to identify management options for conservation or 
recovery of this species.
    Our research to understand habitat needs and inform management 
practices has identified optimal roosting requirements of bats during 
the maternity season. In general, this research has shown that bats 
prefer large trees or snags, often in relatively open areas. However, 
there is still considerable unexplained variation within and among bat 
species that requires further study. Additional research on the effects 
of forest management has shown that forest management practices, 
particularly thinning, prescribed fire, and creation of small canopy 
gaps or openings, generally do not reduce habitat attributes for bats 
and may be very beneficial. Forest Service scientists, in collaboration 
with agricultural economists, have also initiated development of models 
to quantify the ecological and economic importance of bats to 
agriculture and forest ecosystems.
    Forest Service Research and Development works closely with 
managers, partners, and the public to ensure our research informs 
management strategies for the National Forest System and other public 
and private lands in the future. Information gained from Forest Service 
R&D studies on habitat requirements, bat response to forest management, 
and the consequences of human development on bat habitat and 
populations will be critical to understanding the direct, indirect and 
cumulative effects of WNS and other stressors on bat populations.
THE ROLE OF STATE AND PRIVATE FORESTRY AND CONSERVATION EDUCATION
    Another approach for the management of healthy and resilient 
forests is to implement efforts with State Foresters through the State 
and Private Forestry arm of the Forest Service. The Forest Stewardship 
Program provides financial and technical assistance to State Forestry 
organizations for private forestland management consultation and plans. 
Targeting private forest management efforts to implement prescriptions 
that would enhance or develop attributes for bat foraging, roosting or 
maternity habitat in privately owned forests in and near areas affected 
by WNS could help bat populations recover once WNS is controlled.
Conservation Education
    We know that the public is a critical partner in the effort to help 
save the bats. The Forest Service is actively involved in educating 
people regarding WNS, bat species conservation, and the ecological and 
economic importance of bats. Children find bats fascinating and are a 
key part of our education programs. We are informing people why Eastern 
and Southern National Forest System caves and abandoned and/or inactive 
mines are closed to the public until more is learned about the 
pathology of WNS.
CONCLUSION
    The Forest Service is in the process of responding to the serious 
threat to bat populations posed by WNS. The Forest Service Deputy Areas 
for the National Forest System, Research and Development and State and 
Private Forestry are contributing to this vital cause. To further the 
conservation management of the vast and diverse habitat and fauna on 
National Forest System and other lands, the Forest Service is committed 
to cooperation and partnerships with Federal, State, Tribal and 
nongovernmental organizations interested in the conservation and 
preservation of bats. Mr. Chairman, this concludes my testimony. I am 
pleased to answer any questions that you or the Members of the 
Subcommittee may have.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Pena, for your testimony. We 
now have Dr. Gassett, and you have five minutes, sir.

STATEMENT OF DR. JON GASSETT, COMMISSIONER, KENTUCKY DEPARTMENT 
                 OF FISH AND WILDLIFE RESOURCES

    Dr. Gassett. Thank you, Chairman Fleming, and Subcommittee 
Members. I am Dr. John Gassett, Commissioner of the Kentucky 
Department of Fish and Wildlife Resources, and the Vice 
President of the Association of Fish and Wildlife Agencies, as 
well as the Chair of the Association's White-Nose Syndrome 
Working Group.
    During the last several years with my personal involvement 
with White-Nose Syndrome has grown from watching its advance 
southward and westward, to chairing the Association Working 
Group to garner further state awareness, to bearing 
responsibility in my state upon confirming White-Nose Syndrome 
in Kentucky this spring.
    And I am encouraged by the amount of dedication and 
commitment by the community of individuals, both here and 
abroad, that care deeply about our bat resources. But I am here 
today to bring you a state perspective on where the battle 
against White-Nose Syndrome will ultimately be won or lost.
    In my home state of Kentucky, we are known for a few 
products for our vast limestone substrate, the best 
thoroughbred race horses in the world, and fine Kentucky 
Bourbon, are both products of our limestone beneath our feet.
    But this limestone topography is also conducive to cave 
formation. Kentucky is home to thousands of limestone caves and 
caverns, some large, such as Mammoth Cave, and some so small 
that you couldn't fit a single person inside.
    What many of these caves have in common are the bats that 
live there and the ecosystem that those bats support. Kentucky 
is home to a number of bat species, including a large 
percentage of the world's known population of Federally 
endangered Gray bats and Indiana bats.
    The fact that we have tremendous numbers of caves that are 
homes to these bats that are now experiencing a disease that 
has the potential to devastate their numbers, obviously causes 
us some concerns.
    Since the discovery of White-Nose Syndrome a few years ago, 
my agency has aggressively increased surveillance and 
monitoring of bats, and educating landowners and grottos on the 
importance of minimizing cave disturbance, and closed non-
commercial caves on public lands that were known to house bats.
    We have initiated a voluntary cave closure on private land, 
and we have assisted the Service with a cave closure advisory. 
Have we taken some drastic measures? Yes. Will they be 
effective in controlling the spread of the disease? We are not 
sure yet.
    Our approach to preventing this disease from entering 
Kentucky, and then arresting its spread once it got there has 
been controversial. For example, several years prior to the 
discovery of the disease in Kentucky, we began initiating cave 
closures on state-owned lands.
    One of these closures was in a small community of Carter 
Caves, and on the weekend before a major caving event that had 
over 900 participants registered, we decided that the event 
could potentially jeopardize the resident bats from a caver 
inadvertently bringing in infected material.
    We closed this event three days before it happened. 
Obviously, the caving community was disappointed, and we worked 
with a State Park to offset some of their revenue losses, but 
the local economic impact was significant to this small 
community.
    We followed public cave closures by turning toward private 
land caves. We worked with landowners cooperatively through an 
educational campaign to inform them of the United States Fish 
and Wildlife Service cave closure advisory, and asked them to 
voluntarily close their caves.
    Of the 80 caves or 80 cave owners that we sent letters to, 
only three refused to do so, and the remainder did. So once 
again landowners are responding to the disease threat.
    Cave closures haven't been the only controversial approach 
to controlling disease in Kentucky. Once it was found in Ohio 
this spring, we visited a sampling of caves across the state to 
be sure that we hadn't missed it. Unfortunately, we did turn 
the disease up in Western Kentucky.
    So we consulted with our Federal partners, because there 
are Federal bats involved, and began an immediate recon of the 
cave system within a 10 mile radius, and it turned out that 
this was an isolated event.
    So we took what some people would say are drastic measures. 
We went in and evaluated the situation, and determined that we 
can protect the threatened and endangered bats that weren't 
infected, but could remove the infected non-endangered bats. We 
did so, and we removed approximately 60 bats, which were all 
that we could get to at that time.
    We made a difficult call to alter the cave artificially, 
and where these bats were infected, and where they were 
hanging, we went in and attached artificial structures to keep 
bats in the future from roosting there.
    So obviously there were folks from the caving communities 
and from the cave biologist side of things, and who were very 
upset with the fact that we had actually physically altered the 
cave, but to us, it wasn't worth the risk of allowing those 
3,500 Federally listed bats that were in that cave the 
opportunity to roost in an area that might become infected.
    We have taken some drastic measures in Kentucky, and we 
feel that that is what states are going to have to do to 
ultimately win this fight against this disease. There are a 
litany of needs to address White-Nose Syndrome properly, 
particularly in the realm of research.
    And we ask that research activities and funding focus on 
treatment and on the ground management needs. As White-Nose 
Syndrome moves across the landscape, a coordinated and informed 
effort is more important than ever before, and wildlife 
managers are in need of support to broaden their surveillance 
efforts.
    We have thousands of caves in Kentucky, and it is difficult 
to surveil them all. States need continued support of all 
entities, both public and private, Federal, and non-profit, to 
effectively manage on a broad scale, and Congressional support 
via funding is critical if we are to conserve this national 
biological treasure.
    While the professionals within this room realize that this 
may be the most challenging wildlife disease issue in our time, 
we are optimistic and hopeful that treatment controls will be 
found, and we will continue to press forward working in concert 
to ensure bat populations be afforded every opportunity to 
thrive.
    Mr. Chairman, and Honored Subcommittee Members, thank you 
for the opportunity to share our perspectives, and I would be 
pleased to answer any questions.
    [The prepared statement of Dr. Gassett follows:]

             Statement of Jon Gassett, PhD, Commissioner, 
           Kentucky Department of Fish and Wildlife Resources

    Thank you, Chairman Fleming and Subcommittee Members for the 
opportunity to share the perspectives of the Association of Fish and 
Wildlife Agencies on this important environmental issue. I am Dr. Jon 
Gassett, Commissioner of the Kentucky Department of Fish and Wildlife 
Resources and the Vice President of the Association of Fish and 
Wildlife Agencies as well as the chair of the Association's White-Nose 
Syndrome Working Group.
    The Association of Fish and Wildlife Agencies (AFWA) promotes and 
facilitates sound fish and wildlife management and conservation, and is 
the collective voice of North America's fish and wildlife agencies. The 
Association provides its member agencies and their senior staff with 
coordination services that range from migratory birds, fish, habitat, 
and invasive species, to conservation education, leadership 
development, and international relations. The Association represents 
its state fish and wildlife agency members on Capitol Hill and before 
the Administration on key conservation and management policies, and 
works to ensure that all fish and wildlife entities work 
collaboratively on the most important issues. All 50 states are members 
of the Association.
    During the last several years, my personal involvement with WNS has 
grown from watching its advance, moving southward and westward, to 
bearing responsibility in my own state upon confirming WNS in Kentucky 
this spring. I am encouraged at the amount of dedication and commitment 
by a community of individuals who care deeply about our bat resources. 
At the same time, I am concerned at the rate of spread, the high 
suspect ability of certain species and the lack of available treatment 
options. Again, I am encouraged by the genuine concern and interest as 
shown here by this Subcommittee.
White-Nose Syndrome: What Is It and Where Is It?
    In the winter of 2006 the first signs of a destructive fungus 
(Geomyces destructans) appeared on hibernating bats in Howe's Cave in 
upstate New York. By 2009 thousands of hibernating bats from a variety 
of species across the northeast (New York, Vermont, New Hampshire, 
Massachusetts, Connecticut, New Jersey, Pennsylvania, West Virginia, 
and Virginia) were dying or had died from this new disease now known as 
White-Nose Syndrome (WNS) for the tell-tale white fungus found on the 
muzzle of infected bats. As of 2011 WNS has spread north to Maine and 
the provinces of New Brunswick, Nova Scotia, Ontario, and Quebec. The 
disease has also spread south to Maryland, North Carolina, Kentucky, 
and Tennessee as well as to the Midwest to Indiana and Ohio. WNS has 
also been confirmed in Delaware, Missouri, and Oklahoma. Thus far, of 
the twenty-five hibernating bat species in North America, six species 
have been affected by WNS including the endangered Indiana bat (Myotis 
sodalis) and the endangered Gray bat (Myotis grisescens). The 
endangered Virginia big-eared bat (Corynorhinus townsendii) and Ozarks 
big-eared bat (Corynorhiunus townsendii ingenus) are both found within 
the geographical range of WNS, but no infected bats from either species 
have been found at this time.
    G. destructans infects not only the muzzle but also the ears, and 
(most importantly) the wings of bats. Once G. destructans infects an 
individual the fungus colonizes the area of infection, erodes the 
epidermal layer, and eventually reaches the connective tissue where 
damage can be intensive. Infection of the wings is of the great concern 
as they play a key role in homeostasis. The exact cause of death is 
uncertain but frequent arousals due to irritation from the infection 
and the subsequent depletion of fat reserves may be a factor. Bats have 
also been reported to leave their hibernacula prematurely and succumb 
to the cold. Mortality can be as high as 90-100% of an infected 
population and estimates suggest that over 1 million bats have died 
from WNS to date.
    Exposure to G. destructans occurs within caves and/or abandoned 
mines where certain species hibernate in huddled masses through the 
winter as a mechanism to survive cold temperatures and limited food 
supply. Temperatures within any given hibernacula range from 2-14+ C 
which is also within the optimal range for G. destructans growth. North 
American bats have been exposed to a variety of fungal species with no 
detrimental effects until now. Surveys of European bat populations 
indicate exposure to G. destructans, but with none of the mortalities 
associated with the fungus in North America. This suggests that the 
fungus may have European origins, and bats there co-evolved with the 
fungus. This also suggests that G. destructans crossed over to North 
America through unintentional human importation (i.e. on caver's boots 
or other caving gear) and is now spreading throughout immunologically 
naive bat populations throughout North America.
Importance of Bats and the Future Impacts of WNS
    Bats play an important role in the environment as well as natural 
resource-based economies such as agriculture and forestry. They may act 
as pest control, pollinators, or seed dispersers depending on the 
species. Bats are a keystone species in most ecosystems and help 
maintain balance. So far WNS has only impacted insectivorous bats, 
which consume large amounts of nocturnal insects that may act as 
agriculture or forestry pests. Recent estimates suggest that 
agriculture losses from WNS could exceed $3.7 billion per year. For 
certain crops (ex. cotton), bats play a prominent role in pest 
suppression which could lead to even larger losses. Without these 
ecosystem services, increased pesticide application will be used. Not 
only will this be expensive to farmers but could adversely affect fish 
and wildlife in surrounding areas through direct exposure or indirect 
exposure through runoff. The loss of large populations of insectivorous 
bats could also lead to future public health and wildlife health crises 
with increased cases of West Nile Virus and other similar diseases.
The National Plan
    We applaud the U.S. Fish and Wildlife Service and their 
conservation partners for the creation of the National Plan for 
Assisting States, Federal Agencies, and Tribes in Managing White-Nose 
Syndrome in Bats. State fish and wildlife agencies sit on the National 
Plan Executive Committee and on the technical teams and were thus 
significantly involved in drafting the Plan. Recently released in May 
of this year the National Plan will serve as a framework for federal, 
state and private entities. This National Plan is only the first step 
as the National WNS Implementation Plan is now underway. Details for 
each goal and objective outlined in the National Plan will be found 
here. This will serve to delineate options, responsibilities and a 
means of checks and balances to insure that previously defined goals 
and objectives can and will be met. While state fish and wildlife 
agencies are the ultimate decision makers for strategies to reduce the 
impact and spread of WNS, the National Plan acts as an overarching 
framework where all may move towards a common goal. With the far-
reaching affects of WNS, it is imperative to have a clear roadmap for 
success. The National Plan and the forthcoming National Implementation 
Plan serve as that roadmap
State Action
    For more than 100 years, state fish and wildlife agencies have been 
managing natural resources for the public trust by addressing threats 
to fish and wildlife including habitat fragmentation, degradation, 
disease and pathogens, and loss from changing land uses, pollution and 
sedimentation, deleterious or invasive species, and unsustainable use 
of natural resources. State, provincial and territorial fish and 
wildlife agencies have upheld the primary responsibility for conserving 
and preventing the exploitation of those resources on public and 
private lands and waters within their borders. State fish and wildlife 
agencies are proactively combating the effects of WNS through 
collaborative efforts with their fellow state fish and wildlife 
agencies, federal agencies, and NGO partners. State biologists, on 
average, have numerous species and duties under their purview and are 
limited in their ability to respond to crises at the scale of WNS. In 
these current economic times when state budgets are slowly shrinking, 
it is these partnerships that allow states to expand their efforts.
    States have been resourceful in utilizing federal, state and NGO 
partner capacity for addressing WNS, along with various funding 
mechanisms. States have also been utilizing the limited funding 
available to further baseline knowledge and track the spread of WNS.
Examples of state efforts are as follows:
Virginia
    Through federal WNS Grant funds, the Virginia Department of Game 
and Inland Fisheries and partners initiated three projects to assist 
with the understanding of WNS and its impacts. These efforts included 
banding bats with the objectives of monitoring demographic and 
biometric changes associated with WNS, determine changes in population 
levels, and monitor individuals over time to determine potential 
resistance.
    Western Coordinated Multi-State Response: Arizona, California, 
Idaho, Montana, Nevada, Washington, and Bat Conservation International
    The major focal areas of this State Wildlife Grant (SWG) are 
oversight, surveillance, outreach, and research. The 6 states intend to 
develop response plans, purchase equipment, conduct surveillance and 
monitoring, outreach, and research. The lead state (Arizona), Bat 
Conservation International, and partner states will actively engage 
with existing and emerging WNS networks--connecting representatives 
from each state partner with the broader national network of partner 
state and federal agencies and nonprofits (working on WNS), as well as 
private landowners, recreational caving interests, and corporate and 
foundation interests that can provide critical private dollars.
Vermont
    Vermont has applied appropriated federal funding with state match 
dollars through the SWG program and the direct federal WNS Grants to 
the States. In recent years, such funds have been applied to WNS 
surveillance, addressing public concerns, and participating in regional 
or national research projects on the disease itself.
Tennessee
    Current funding from the White Nose Syndrome Grant, Endangered 
Species Act Habitat Conservation Plan and Section 6 (Indiana and Gray 
Bats) funds to survey bat populations and incidence of WNS have helped 
identify caves with bats. The WNS Grant allowed the Tennessee Wildlife 
Resource Agency to purchase an array of equipment used in bat surveys.
Iowa
    With USFWS WNS Grant funds Iowa Department of Natural Resources 
prepared Web-based and written materials regarding white-nose syndrome, 
identification, cause, means of transmission, actions that landowners 
should take to minimize spread of disease, reporting protocols, links 
to USFWS' and other pertinent white-nose syndrome sites and information 
sources, and contact information for Iowa DNR personnel to answer 
queries regarding white-nose syndrome and coordinate monitoring for 
disease.
    Signs were prepared for posting on public lands which harbor 
hibernating cave bats and printed written materials for distribution to 
target audiences were also done under the USFWS WNS grant.
Kentucky
    The agency has aggressively increased surveillance and monitoring, 
educated landowners and grottos on the cave closure advisory, provided 
signage and has worked with numerous researchers throughout the nation. 
Funding for these efforts was provided for through a USFWS WNS grant 
and State Wildlife Grant (SWG). Kentucky detected a WNS positive site 
this spring and is aggressively researching management measures that 
may help slow the spread.
WNS-Cave Closings
    States have acknowledged and supported the USFWS's voluntary cave 
closure advisory issued in 2009. While this ban affects non-commercial 
caves on public and private property, it does not address the 
commercial cave industry. Many state agencies have worked diligently 
with private landowners, educating them on the importance of limiting 
disturbance to hibernating bats during the winter, as well as, the 
threat of WNS. Conscientious landowners have allowed signage to be 
erected, talked with local cavers and indicated an overall support of 
the voluntary closure.
    While commercial cave operations are important to local economies, 
they too can potentially be a source of contamination. There is an 
effort underway by state, federal and non-governmental organizations to 
develop a Commercial Cave Advisory document that will assist commercial 
cave owners/operators. This will allow them to maintain a ``clean'' 
cave environment without crippling their business, during these 
difficult economic times. While recognizing the importance of caving to 
interest groups and commercial venues, we also recognize the associated 
responsibility to those organisms that inhabit these systems. Bats, 
invertebrates and other cave dependent species are critical to 
maintaining a healthy cave ecosystem.
    Kentucky Department of Fish and Wildlife worked with landowners 
through an educational campaign and letter to inform them of the USFWS 
cave closure advisory. Over 80 letters were mailed to landowners asking 
if they would like to close their cave and receive signs for their 
property. The response was overwhelming, with only 3 property owners 
indicating that they would prefer to leave their cave open.
    An excellent example of partners working together for the benefit 
of bats, while acknowledging economic impacts, exists at Mammoth Cave 
National Park (MCNP). Mammoth Cave is located in south-central Kentucky 
and received over 400,000 visitors per year and has an enormous 
economic impact in the local region. Gross ticket sales average $3 
million dollars. Mammoth Cave is also home to at least 3 caves 
harboring the federally endangered Indiana bat and Gray bat. MCNP 
developed a screening process, educational materials, hired staff and 
developed decontamination stations to assure visitors were not a 
potential source of spreading WNS. Overall, visitors have been very 
receptive and eager to ensure protection of this valuable resource.
What is still needed?
    There is a litany of needs to address WNS properly, particularly in 
the realm of research. We ask that research activities and funding 
focus on treatment and `''on the ground'' management needs. As WNS 
moves across the landscape a coordinated, informed effort is more 
important than ever before. Wildlife managers are in need of support to 
broaden their surveillance efforts, in attempts to spot and perhaps 
slow or limit the spread of this disease. States need continued support 
of all entities, federal and private, to effectively manage on a broad 
scale. Congressional support via funding is critical if we are to 
conserve this national biological treasure.
    Specific needs include:
        <bullet>  Strategies for collaboration with public health 
        departments to increase surveillance
        <bullet>  Identification of priority cave systems (in the west) 
        and methods of protection for uninfected populations
        <bullet>  Training workshops for state agency staff on 
        protocols for samples collection, preparation, and euthanasia 
        (where appropriate)
        <bullet>  Education and outreach plans for the public and 
        private land owners
        <bullet>  More diagnostic facilities throughout the country
        <bullet>  Increased surveillance and monitoring in both regions 
        where WNS has not been detected and regions where WNS has 
        occurred
        <bullet>  State and/or Regional WNS Plans
        <bullet>  Cost effective treatment for infected individuals in 
        the wild
        <bullet>  Improved survival of infected individuals from the 
        known causes of mortality by WNS (starvation and dehydration)
Closing Remarks
    While the professionals within this room realize this may be the 
most challenging wildlife disease issue of our time, we are optimistic 
and hopeful that treatment and controls will be found. We will continue 
to press forward working in concert to ensure bat populations will be 
afforded every opportunity to thrive.
    Mr. Chairman and honored subcommittee members thank you for the 
opportunity to share our perspectives and I would be pleased to address 
any questions.
                                 ______
                                 
NOTICE TO KENTUCKY CAVE OWNERS
``White Nose Syndrome--a new threat to cave bats''
Cave Name:____________________________________________________

    You are receiving this letter because you own one or more caves. If 
you have received this letter and do not own a cave or caves, please 
contact us (contact information can be found at the end of this letter) 
and we apologize for any inconvenience.
Background
    In 2006, a mysterious fungus was discovered growing on the muzzles 
of several bats hibernating in a cave near Albany, New York, and the 
term ``White Nose Syndrome'' (WNS) was coined. Between 2006 and 2007, 
this syndrome spread to five caves in New York. Since then, WNS has 
spread to over 60 caves and mines in nine states in the northeast and 
eastern U.S. WNS has been associated with the deaths of approximately 
1,000,000 bats and that number continues to rise. Several bat species 
have been affected, including the federally endangered Indiana bat. So 
far, this disease has not been found in Kentucky caves, and we want to 
do everything possible to keep it that way. This letter is being sent 
to you to inform you of the problem and to ask for your help, as an 
owner of an important bat cave, to assist in keeping this problem out 
of Kentucky, if possible.
    The U.S. Fish and Wildlife Service (USFWS) recently issued a cave 
advisory in states that are affected with WNS and those states adjacent 
to affected states. Because it was found in West Virginia and Virginia 
this year (2009), Kentucky is now considered an adjacent state. 
Kentucky Department of Fish and Wildlife Resources, USFWS Kentucky 
Field Office, and Kentucky Geological/Speleological Society have been 
working closely with cave groups and organizations through meetings to 
develop a state-specific response to this advisory. In Kentucky, non-
commercial state and federally-owned caves have been temporarily closed 
to caving activities.
What we know
        <bullet>  Several species of bats are affected and it is 
        estimated that over a million bats have been affected or have 
        died from WNS
        <bullet>  Most affected bats have a white fungus on their face 
        and low body weight
        <bullet>  Bat populations at affected sites have declined over 
        90% and the remaining bats are starving to death
        <bullet>  At some sites, cave owners reported bats flying 
        outside during the winter
        <bullet>  White Nose Syndrome was found in caves in 2009 that 
        were not affected in 2008
        <bullet>  As of April 2009, nine states are now infected with 
        WNS
What we don't know
        <bullet>  At this time we do not know the cause of the problem
        <bullet>  A fungus is apparent on the bats, but no one knows if 
        the fungus is the cause of the problem or if it is a secondary 
        infection caused by something else
        <bullet>  Several labs, including the Southeastern Cooperative 
        Wildlife Disease Study lab, Cornell University lab, and the 
        USGS disease lab in Madison, WI, are working on this problem
        <bullet>  We do not know how the disease is spread from bat to 
        bat or from cave to cave. It may be spread via the air, soil, 
        or water in the cave and then transferred from cave to cave by 
        cavers
        <bullet>  Until we know more, we need to assume this is a 
        possible means by which the disease spreads. If it is carried 
        from cave to cave by the bats themselves, there may be little 
        we can do
        <bullet>  At this time we do not know if there are risks to 
        humans, but the potential risks to humans are being assessed
        <bullet>  Biologists working at affected sites in New York have 
        not shown any signs of problems, but we cannot assume there are 
        no risks to humans at this time
        <bullet>  Also, potential impacts to other wildlife species are 
        not known
Implications for Kentucky bats
    Several Kentucky caves are important hibernation sites for bats, 
including three federally endangered species: the Indiana bat, Gray 
bat, and Virginia big-eared bat. Thousands of other caves are home to 
many other species of bats.
Virginia big-eared bats
    Kentucky has the second largest hibernating population of Virginia 
big-eared bats in the country! A serious concern is that our population 
of Virginia big-eared bats hibernates in only a few caves during the 
winter, which leaves this species vulnerable to being entirely wiped 
out by WNS. Virginia big-eared bat populations in states that have WNS 
such as West Virginia and Virginia appear to be unaffected; however, 
these bats hibernate in caves with species affected by WNS.
Indiana bats
    In the past few years, populations of Indiana bats in Kentucky 
caves have just started to show an increase thanks to cave protection 
efforts. However, Indiana bats continue to decline in many other parts 
of their range. Populations of Indiana bats in the northern states are 
currently being severely impacted by WNS. If populations in Kentucky 
become affected, the likelihood of recovery for this species could be 
greatly reduced.
Gray bats
    There have been great strides made towards the recovery of the gray 
bat since it was first listed as endangered in 1976. Populations in 
Kentucky have been on the rise and in the summer, the species can be 
found in caves throughout the Pennyrile Region and a few in the 
Bluegrass. Unfortunately, this number has only grown slightly as 
approximately 95 percent of the entire gray bat population hibernates 
in only 17 caves in 5 states, Kentucky being one of them. This 
concentration makes them very susceptible to being wiped out quickly by 
WNS.
What can we do?
    1. Close bat caves to human traffic until we know more about how to 
contain this problem. This is the best precautionary step we can take 
at this time. The Kentucky Department of Fish and Wildlife Resources 
and U.S. Fish and Wildlife Service are preparing a list of the caves we 
feel should be voluntarily closed. Cavers will be asked to voluntarily 
stay out of these caves.
    2. If, as a cave-owner, you would like to officially close your 
cave while we learn more about this problem, we will include your cave 
on the list of closed caves that will be posted on a website cavers can 
access. We have enclosed a self-addressed stamped envelope and a form 
to be completed by you as the cave owner. Please check that you would 
like to have your cave on the ``Cave Closed'' list and sign and date 
the form. The list of closed caves will also be distributed to local 
caving groups. You can also contact Brooke Slack or Mike Armstrong 
(contact information below) for more information.
    If you do not want your cave placed on the official closed cave 
list, we still plan to ask cavers to stay out of the cave voluntarily 
as we try to learn more about this problem. We have enclosed a self-
addressed stamped envelope and form to be completed by you as the cave 
owner. Please check the ``Cave Open'' box and sign and date the form. 
If you allow cavers to enter your cave, we strongly recommend they 
clean their gear, clothing, and boots before entering the cave. A 
procedure for disinfection can be found at http://www.fws.gov/
northeast/wnscavers.html. If cavers going into your cave have been 
caving in New York, Vermont, Massachusetts, Connecticut, New Hampshire, 
New Jersey, Pennsylvania, West Virginia, Virginia (states known to be 
affected as of June 2009) or any states adjacent to these prior to 
entering your cave, we highly recommend that they replace their gear 
and not use any gear/clothing/boots that has been used in potentially 
affected sites. If this is not possible, they should disinfect their 
gear, clothing, and boots before going in to Kentucky caves following 
the protocols recommended by the USFWS. If cavers find WNS in your 
cave, please have them report it as soon as possible to Brooke Slack or 
Mike Armstrong.
    3. If you do not respond within 14 days, we will consider your 
cave(s) temporarily closed.
    4. Report any unusual bat activity at the cave, such as bats flying 
outside the cave during winter. Some bat activity on warm winter days 
is not unheard of, but large number of active bats would be unusual. If 
you find dead bats outside your cave, contact Brooke or Mike.
    Bat populations are doing well in Kentucky caves thanks to the 
cooperation and assistance of cave owners like you willing to help 
protect this resource. Great strides have been made in the last 20+ 
years. We could be taking a giant step backward should WNS appear in 
Kentucky caves. Once it is here, there will be no going back. Your 
assistance at this time is greatly appreciated. We would like to have 
the initial list of closed caves available to the caving community as 
soon as possible, but the list can be updated later if you wish to 
change the status of your cave.
    To get the latest information on White Nose Syndrome, visit: http:/
/www.fws.gov/northeast/white_nose.html

Sincerely,

Brooke Slack
Wildlife Biologist
Kentucky Department of Fish and Wildlife Resources
502-564-7109 ext. 4573

Mike Armstrong
Endangered Species Biologist
U.S. Fish and Wildlife Service
502-695-0468 ext. 101

        v  I have read the enclosed letter informing me about WNS and 
        the recommendations of the Kentucky Department of Fish and 
        Wildlife Resources. I would like to close my cave or caves. 
        Please include caves that I own on your ``Cave Closed'' list.

        v  I have read the enclosed letter informing me about WNS and 
        the recommendations of the Kentucky Department of Fish and 
        Wildlife Resources. At this time I am choosing to keep my cave 
        or caves open to caving. I understand by doing this that I risk 
        exposing my cave(s) to WNS.
_______________________________________________________________________
Signature of Cave(s) Owner                         Date

[NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Dr. Fleming. Thank you, Dr. Gassett. Next, Ms. Fascione. 
You are now recognized for five minutes.

        STATEMENT OF NINA FASCIONE, EXECUTIVE DIRECTOR, 
                 BAT CONSERVATION INTERNATIONAL

    Ms. Fascione. Thank you, and good morning, Chairman 
Fleming, Ranking Member Bordallo, and Members of the 
Subcommittee. Thank you for providing this opportunity to 
testify on this important issue today.
    My name is Nina Fascione, and I am the Executive Director 
of Bat Conservation International. We are a non-profit 
conservation organization headquartered in Austin, Texas, with 
about 30,000 members and supporters in all 50 states and 
abroad.
    Thank you for addressing an issue that can only be 
described as a massive wildlife crisis with this new emerging 
disease that we are talking about, White-Nose Syndrome, which 
is just decimating America's bat populations.
    Scientists have described this disease as causing the most 
precipitous decline in wildlife in North America. Since its 
discovery in 2006, more than a million bats have died, and I 
would say that although the official number is more than a 
million, bats are hard to count, and the number is likely in 
the millions.
    The disease strikes hibernating bats, bats that sleep 
through the winter in caves and mines, and of the Nation's 45 
bat species, 25 hibernate. So more than half of our species in 
the United States are at risk.
    It currently affects nine species, including two endangered 
species, the Indiana Bat and the Gray Bat. Losses are so severe 
that researchers are predicting a regional extinction of the 
Little Brown Bat, which was once one of North America's most 
common mammals in the Northeast region, and in as little as 16 
years.
    Bats provide enormous benefits to humans, and their loss 
would have serious ecological and economic consequences. They 
are the primary predators of night flying insect pests, and are 
critical to maintaining the balance of nature.
    A bat can eat to half to all of its body weight in insects 
each night, consuming huge numbers of insects that damage 
crops, such as corn, cotton, and potatoes. One million bats 
again is a conservative number of the amount that have died so 
far, and would have consumed nearly 700 tons of insects a year, 
which is a lot to lose.
    The study published this spring in the Journal of Science, 
which you both mentioned, estimates the value of bats to the 
agricultural industry of between $3 billion and $53 billion a 
year, and those researchers believe that the agricultural 
industry will see impacts of this in as little as four to five 
years.
    In additional to the crop losses, farmers will need to use 
more pesticides, which of course is an economic burden to them, 
as well as adding more pollutants to our environment. Bats also 
eat insects that damage forests, such as the Emerald Ash Borer, 
and that spread disease, such as mosquitos.
    Another issue is that the population declines from White-
Nose Syndrome could lead to listing more bat species under the 
Endangered Species Act or under state laws, which could cause 
further far-ranging economic impacts.
    Already there have been several petitions for listing or 
status review, and many states are actively listing that 
species. So, regulations stemming from listing more bats could 
have economic impacts on many industries, including mining, 
defense, forestry, construction, transportation, tourism, and 
outdoor recreation.
    The national plan for assisting states, Federal agencies, 
and Tribes, in managing White-Nose Syndrome in bats represents 
the first step in combating White-Nose Syndrome, and addressing 
the critical need for a national plan for this crisis.
    We recognize that the details will appear in subsequent 
implementation plans developed by state and Federal agencies, 
but we must stress the implementation is urgent. We encourage 
the agencies to quickly identify detailed concrete actions for 
fighting White-Nose Syndrome and begin to address them.
    But to do so requires funding, and the need for White-Nose 
Syndrome funding is increasing as the disease spreads. In 
Fiscal Year 2010, the Fish and Wildlife Service awarded $1.6 
million for White-Nose Syndrome research through a granting 
process, for which the agency received $10.5 million in 
proposals.
    So clearly the demand for research outstrips the supply. 
Also, the westward spread of the disease is sharply increasing 
the need for a Federal response and funding as well. Western 
states have a higher portion of public land than in the East, 
and beyond that, much less is known about Western bat 
populations, and the rugged terrain out West makes data 
gathering more difficult.
    To this point, Fiscal Year 2012 is the first year for which 
BLM anticipates significant White-Nose Syndrome expenses, many 
of which will go toward surveying approximately 400 Western 
caves and abandoned mines simply from baseline data on bat 
populations.
    We recognize Congress' is facing difficult financial times, 
and so let me point out that monies spent on White-Nose 
Syndrome is a wise investment. Stopping White-Nose Syndrome now 
will reduce future expenses to the United States economy, 
resulting from pest impacts to agriculture and forestry, 
businesses impacted by additional bat listings, and the cost of 
listed species recovery. In this case, an ounce of prevention 
is truly worth a pound of cure.
    Without the efforts of the Federal Government, White-Nose 
Syndrome will continue to spread across the country unchecked, 
killing even more bats, and consequential ecological and 
economical impacts will affect all of us as consumers, 
taxpayers, and residents of a planet further impoverished by 
biological diversity.
    Thank you again for this opportunity to share Bat 
Conservation International's position on this serious matter. 
Thank you.
    [The prepared statement of Ms. Fascione follows:]

            Statement of Nina Fascione, Executive Director, 
                     Bat Conservation International

    Chairman Fleming, Ranking Member Christensen, and members of the 
Subcommittee, thank you for the opportunity to submit testimony. Bat 
Conservation International (BCI) is a non-profit organization that 
conducts and supports science-based research, education, and 
conservation to ensure that bats will still be helping to maintain 
healthy environments and human economies far into the future. We are 
based in Austin, Texas, with a membership of more than 10,000 from all 
50 of the United States.
    WNS poses the gravest threat ever faced by U.S. bats. Since its 
discovery in 2006, the disease has killed well over one million bats. 
It is named for the previously unknown, cold-loving white fungus found 
on faces and wings of infected bats that is believed to cause the 
disease. WNS-infected bats awaken frequently during hibernation, 
burning the fat reserves they need to survive the winter. They often 
emerge early from hibernation, before the return of warm weather and 
insects, only to freeze or starve to death. The disease or its 
associated fungus has spread to 19 states and four Canadian provinces 
in the five years since WNS was first observed in a cave near Albany, 
New York. The Northeast has borne the brunt of WNS so far, but the 
disease or its fungus has spread as far south as North Carolina and 
Tennessee, and as far west as Oklahoma.
    Biologists consider the WNS die-off to be North America's most 
precipitous wildlife decline in the past century. The disease strikes 
hibernating bats--those that sleep through the winter in caves and 
mines--and has affected every hibernating bat species in its geographic 
path. Of the nation's 45 bat species, 25 hibernate, and all of these 
hibernating species are potentially at risk of the disease. WNS or the 
fungus currently affects nine species, including the Federally 
endangered Indiana and gray bats, which could well be even closer to 
extinction as a result. Some WNS-infected sites experience mortality 
rates of almost 100%. Losses are so severe that researchers are 
predicting regional extinctions of the little brown bat--previously one 
of America's most common mammals--in northeastern states by 2026.
    Bats provide many benefits to humankind. As primary predators of 
night-flying insects, bats are critical to maintaining the balance of 
nature. A bat can eat half to all of its body weight in insects per 
night, consuming pests that damage crops such as corn, cotton, 
soybeans, potatoes, and pecans. A recent article in the journal Science 
estimates the value of bats to U.S. agriculture ranges from $3.7 
billion to $53 billion per year. Bats also eat insects that damage 
forests, such as the emerald ash borer, and that spread disease, such 
as mosquitoes. Some bat species pollinate crops and disperse seeds. 
Research of bat biology has yielded important chemical products, 
including a medication to prevent strokes. Bat droppings in caves 
support unique ecosystems, including microorganisms that could provide 
resources for detoxifying industrial wastes and producing pesticides 
and antibiotics.
    The loss of bats would have serious ecological and economic 
consequences. The one million-plus bats killed by WNS would have eaten 
more than 700 tons of insects each year. With the bats gone, these 
insects are surviving to attack crops and forests. The authors of the 
Science article argue that, as a result of WNS, North American 
agriculture will begin noting economic losses within four to five 
years, with especially severe impacts to the Midwest and Great Plains 
regions. In addition to crop losses, farmers will need to use more 
pesticides, increasing the financial strain on farming families, 
raising the price of food for consumers, and releasing more chemicals 
into our environment. Bats are important predators, so their 
disappearance could have broad, ripple effects on the environment that 
we cannot yet assess.
    The population declines from WNS could well lead to listing more 
bat species under the Federal Endangered Species Act, as well as state-
level statutes, which would cause far-ranging economic costs. The 
Center for Biological Diversity has petitioned the FWS for listing of 
the northern long-eared bat and eastern small-footed bat because of WNS 
and other factors, while BCI and other organizations have requested the 
FWS to review the status of the little brown bat and to file an 
emergency listing of the species in the interim. At the state level, 
Ohio has designated four bat species as species of concern; Wisconsin 
listed four bat species as threatened; and other states, including New 
York and New Hampshire, are considering designations. According to the 
Government Accountability Office (GAO-06-463R), the average cost for 
recovery of an endangered species is $15.9 million. The highest 
estimate on record is $125 million to recover the whooping crane. Bat 
species affected by WNS have broad geographic distributions and complex 
ecological patterns, which would likely require very high recovery 
costs. Finally, regulations stemming from listing more bat species 
would have economic impacts on industries such as mining, defense, 
energy, forestry, construction, transportation, tourism, and outdoor 
recreation.
    The Federal government recognizes how much is at stake from WNS 
and, in conjunction with state, local, and tribal agencies, academic 
institutions, and nonprofits, has mounted an admirable response to the 
disease. WNS and its associated fungus were unknown to science until 
discovered in New York, but since then, Federal dollars have enabled 
researchers at USGS and elsewhere to isolate, identify, and develop a 
test for the WNS fungus, to map its genome, and answer some basic 
questions about the nature, transmission, and diagnosis of the disease. 
The FWS, the lead agency for WNS response, coordinates government and 
other entities in order to maximize efficient use of resources, prevent 
redundancy, and facilitate an effective national response. In this 
role, the agency has funded scientific research and on-the-ground 
disease surveillance and management, developed recommendations to help 
prevent disease spread, and created the National Plan for Assisting 
States, Federal agencies, and Tribes in Managing White Nose Syndrome in 
Bats in collaboration with all involved Federal agencies, as well as 
State and other entities. Land-management agencies have been at the 
forefront in developing disease-monitoring techniques, gathering bat-
survey data, managing resources to increase bat survival, and producing 
materials to educate the public about WNS. The NPS's Mammoth Cave 
National Park has developed a site-based response plan that is being 
used as a model for public lands throughout the country; USFS is 
testing ways to improve bat habitat to boost post-disease survival 
rates; and DoD is refining acoustical bat-monitoring methods. All of 
these agencies provide technical support to, and collaborate and pool 
resources with, State, Local, and Tribal agencies as well as academic 
institutions and non-profits.
    The National Plan for Assisting States, Federal Agencies, and 
Tribes in Managing White Nose Syndrome in Bats represents a commendable 
step in combating WNS and addressing the urgent need for a national 
approach to our WNS response. BCI agrees with the overall framework 
described in this plan as a preliminary step toward guiding and 
coordinating WNS work nationwide. We recognize that details will appear 
in subsequent implementation plans developed by State and Federal 
agencies to meet specific needs, but we must stress that implementation 
is critical. We encourage the agencies to quickly identify detailed, 
concrete actions for fighting WNS. BCI is also pleased with the plan's 
acknowledgment that effective response requires adequate capacity. 
While we patiently await the development of permanent funding 
mechanisms, we emphasize that federal funding to fight WNS is 
desperately needed. We encourage agencies to include adequate funding 
requests in their FY2013 budgets to ensure that their response is not 
hampered by lack of capacity. Additionally, BCI: underscores the 
importance of involving the academic and professional conservation 
community (in addition to State and Federal employees) in developing 
the implementation plan; urges agencies to fund immediate and 
definitive research to determine relative risk of activities and 
establish levels of acceptable risk (for example, research on WNS 
transmission); encourages an extremely cautious approach to removing 
infected or uninfected bats from the environment, limiting bat access 
to hibernacula, and deploying treatments into natural environments; 
supports expanding outreach and education efforts to include all 
scientific and recreational communities that may pose a risk of 
transmitting fungal spores or may expect to have their activities 
hampered by management decisions due to WNS; and applauds 
acknowledgement of the importance of collecting baseline data on bat 
communities outside the current WNS-affected area, and of assessing the 
ecological impacts that may result from dramatic losses of 
insectivorous bat populations.
    Despite progress made by the Federal government as described above, 
the need for WNS-response funding continues and, in fact, is 
increasing. As the disease spreads, the number of entities involved and 
the scale of the response grows. While scientists have learned much 
about the disease, they cannot yet stop its spread. Critical research 
topics aimed at finding solutions include the susceptibility of 
different bat species to WNS, possible biological-control agents, and 
the disease-producing interface of the fungus, bats, and the cave 
environment. In FY 2010, FWS awarded $1.6 million for WNS research 
through a granting process for which the agency received $10.5 million 
in proposals. The demand for research funds clearly outstrips the 
supply. On-the-ground monitoring and management is required in both 
previously and newly infected areas. Overall coordination and 
communication is needed to ensure efficiency and the sharing of 
information and resources. The westward spread of WNS is sharply 
increasing the need for a Federal response. Western states have a 
higher proportion of public land than those in the East. Beyond that, 
much less is known about western bat populations than eastern ones, and 
the rugged western terrain makes data-gathering more difficult. To this 
point, FY 2012 is the first year for which BLM anticipates significant 
WNS expenses, many of which will go toward surveying approximately 400 
western caves and abandoned mines for baseline data on bats.
    Concluding from analysis of past WNS spending and disease-spread 
trends, we have urged Congressional appropriators to ensure that 
Federal agencies engaged in the WNS response receive $11.1 million to 
address WNS in FY 2012. The cross-agency need is broken down as 
follows:
[GRAPHIC] [TIFF OMITTED] 67111.001


    One can compare this to WNS spending from FYs 2007 to 2010 (we 
do not have reliable expenditure figures for FY 2011):
[GRAPHIC] [TIFF OMITTED] 67111.002


    The increase for FY 2012 over FY 2010 expenses is $4,836,200, 
or 77%. We believe this ask is conservative and in fact will barely 
keep pace with the disease's spread. From 2007 to 2010, the disease 
moved from one state to 14, and from five sites to at least 157. From 
2009 to 2010 alone, the number of affected states increased by 56%, and 
the number of infected sites by 78%. Overall, the number of affected 
states and sites increased by 50 to 100+% each year. This year, WNS has 
been confirmed in five new states, and confirmed or suspected in more 
than 30 new counties. A 77% increase in WNS spending from FY 2010 to FY 
2012 is therefore clearly proportionate to the disease's expected 
expansion by the start of FY 2012.
    Congressional support is critical for addressing WNS. Other funding 
sources are extremely limited. State budgets have been drastically 
reduced and, especially given the spread of the disease, Federal 
agencies' existing resources are not sufficient to meet the need.
    Congress is facing a difficult financial climate, so we underscore 
the fact that money spent on WNS is a wise investment. First, 
preventing the spread of WNS will spare businesses the regulatory and 
other impacts of bat die-offs. Show caves--small businesses that 
provide jobs and contribute to local economies--could also be hurt by 
WNS. States with many show caves include Missouri, Pennsylvania, 
Tennessee, and South Dakota. In addition, implementing WNS response 
generates jobs. The USFS management of forests for bat conservation 
includes thinning stands of trees. The agency contracts with local 
businesses to harvest, haul, and process the trees for timber. Finally, 
conducting WNS research, management, and prevention now will reduce 
future expenses to the U.S. economy resulting from pest impacts to 
agriculture and forestry, businesses affected by additional bat 
listings, and the cost of listed-species recovery. In this case, an 
ounce of prevention truly is worth a pound of cure.
    An issue of debate in the WNS community is whether caves and 
abandoned mines should be closed to prevent or delay spread of the 
disease. BCI supports strong preventative measures to reduce bats' risk 
of WNS. However, the mechanisms of and risk for WNS transmission among 
sites is still not fully understood, and without this knowledge, it is 
difficult to evaluate the risks and benefits of cave closures as a 
disease-prevention tool. Given this state of knowledge, BCI advocates 
targeted regional or site-specific cave closures to reduce disturbance 
to hibernating bats, reduce the possibility of WNS transmission, and 
address other conservation priorities. As part of this stance, we 
support efforts such as combining research and monitoring activities 
into efficiently coordinated visits at hibernacula so as to limit 
disturbance to bats; following USFWS recommended guidelines for 
decontaminating clothing and equipment; and managing caves and mines 
through collaboration among natural-resource professionals, the caving 
community, the public and decision-makers at all levels of government. 
BCI also accepts the reality that agencies must sometimes make 
management decisions with incomplete scientific data. In such cases, an 
abundance of caution can be justified when the stakes are as high as 
they are with WNS. We understand that cave closures can impact cavers 
and other users, but we hope everyone can work together to achieve our 
common goal of stopping this devastating disease so we will not have to 
face such challenging decisions in the future.
    Without the efforts of the Federal government, WNS will continue to 
spread across the country unchecked, killing even more bats than have 
already died. The consequent ecological and economic impacts will 
affect all of us as consumers, taxpayers, and residents of a planet 
further impoverished of biological diversity.
    Thank you again for the opportunity to share BCI's position on this 
serious matter.
                                 ______
                                 
    Dr. Fleming. Thank you, Ms. Fascione. And next is Mr. 
Youngbaer.

  STATEMENT OF PETER YOUNGBAER, WHITE-NOSE SYNDROME LIAISON, 
                 NATIONAL SPELEOLOGICAL SOCIETY

    Mr. Youngbaer. Thank you, Chairman Fleming, Ranking Member 
Bordallo, and Members of the Committee. I appreciate the 
opportunity to return to speak with you about White-Nose 
Syndrome.
    My name is Peter Youngbaer, and I am testifying on behalf 
of over 10,000 members of the National Speleological Society. 
This year, we are celebrating our seventieth anniversary as the 
Nation's oldest and largest organization dedicated to the 
study, exploration, and conservation of cave and karst 
resources.
    The NSS and affiliated cave conservancies own and manage 
dozens of caves throughout the country, including endangered 
habitat and several affected with White-Nose. Along with our 
written testimony, we have provided you with an April issue of 
our society's NSS News, which includes several articles 
addressing many of the questions that you have asked of us 
today.
    One of those articles features a joint photo and bat survey 
expedition of the NSS's West Virginia Department of Natural 
Resources, and United States Fish and Wildlife Service into 
Hellhole, West Virginia, and tells us several important things 
that we know about White-Nose.
    Over 50,000 little brown bats died here, nearly half the 
population. In contrast, less than two percent of the Federally 
Endangered Indiana Bats showed signs of the disease, and the 
population had doubled.
    The Virginia big-eared bats, also Federally endangered, 
showed no signs of the disease. Concurrent with observations 
elsewhere, we know that White-Nose affects bat species 
differently or not at all, and cave microclimates are a factor 
in disease development.
    Finally, this cave is well fenced and protected by an 
electronic monitoring system. We know that no human has entered 
the cave since September of 2007. We know that bats transmit 
the disease, but after five years there is not a single 
documented case of human transmission.
    We do not know what epidemiologists call the multiplicity 
of infection, how much fungus is necessary to infect bats. 
Disease transmission depends on critical mass of pathogens, 
sufficient hosts, and appropriate environmental conditions. A 
perfect storm.
    This same fungus is widespread in Europe, but bats aren't 
dying. Thus, we still can't say for certain that this is the 
cause of the disease. Finally, we still have no treatment for 
stopping or curing White-Nose. Lots of substances kill the 
fungus, but can also kill the bats and other forms of cave 
life.
    Even if a treatment were developed the logistics of 
treating millions of bats in more than 50,000 known caves, and 
hundreds of thousands of mines, are staggering. This suggests 
that our efforts may need to shift to recovery and 
conservation.
    Bats are a fascinating and valuable part of our ecosystem, 
and you will hear about the potential effect the loss of bats 
could have on agriculture and forestry. However, there is 
already a known economic impact by White-Nose management.
    The canceling of major caving events, and the closing of 
State Parks with paid fees for caves has cost the travel and 
tourism industry, and state coffers. The National Caves 
Association, a trade group for commercial caves, reports a 
depressed environment, where they are receiving calls asking if 
they are open, or worse, why are they open.
    With revenues of more than $117 million and an economic 
impact effect of up to one-and-a-half times that, every new 
headline that trumpets ``government closes caves'' is harmful 
to commerce and does little to help bats.
    Regarding funding, taxpayer money has actually funded a 
minority of White-Nose research to date. The first appendix of 
our written testimony is a summary of published White-Nose 
research put together by Dr. Thomas Koonce, of Boston 
University, who testified here two years ago.
    Indeed, the NSS and BCI together have funded 32 projects 
totaling over $200,000. Fish and Wildlife states on its website 
that it has spent over $11 million on White-Nose, but only $3 
million on research. This balance is wrong. There is too much 
bureaucracy and management and not enough hard science.
    The White-Nose national plan has major problems. It is 
little more than a broad outline. It lacks any measures for 
evaluating whether any of the activities are working or not. It 
has no budgetary component or means of prioritizing in a 
restricted fiscal environment.
    And finally being a Fish and Wildlife document, it is 
narrowly focused only on biology, and omitting other cave 
science and conservation concerns. Our second appendix contains 
our formal comments on the draft, which changed little despite 
over 12,000 public comments.
    Finally, we have seen no evidence that the blanket closing 
of caves and mines has done anything to slow or stop White-
Nose. This should not be surprising. In the Eastern United 
States, the vast majority of caves are privately owned and 
open.
    As Tom Aley, scientist and owner of the Ozark Underground 
Laboratory points out, closing only government caves is akin to 
fighting a forest fire by building a control line on only five 
percent of the fire perimeter.
    Further, it is a strategy to be targeted only on 
underground bat habitat, and only at a potential, yet unproven, 
human transmission vector. These closures and calls for private 
landowners to do the same unfairly targets cavers and cave 
owners, and stigmatizes them as environmentally insensitive.
    Further, they alienate natural allies and belay a 70 year 
history of collaboration and conservation. We ask for Congress' 
help. We need targeted, not blanket management, that is 
evidence-based and not speculation-based. We need significant 
increase in research funding, and we ask that Congress insist 
on hard science evaluative measures, and transparency and 
accountability.
    And we ask that you listen to the people who know caves 
best. Thank you again for the opportunity to testify. I will 
leave you with our mottos. Cave softly, cave cleanly, take 
nothing but pictures, leave nothing but footprints, and kill 
nothing but time.
    [The prepared statement of Mr. Youngbaer follows:]

   Statement of Peter Youngbaer, White Nose Syndrome Liaison for the 
                     National Speleological Society

    Chairman Fleming and Members of the Subcommittee. Thank you for the 
opportunity to return to speak with you today about the status of 
White-Nose Syndrome, or WNS.
    My name is Peter Youngbaer, and I am testifying for the National 
Speleological Society as its Liaison on White-Nose Syndrome, a position 
I have held since April of 2008.
    This year, the NSS is celebrating its 70th Anniversary as the 
nation's oldest and largest organization dedicated to the study, 
exploration, and conservation of cave and karst resources, protection 
of access to caves, responsible management of caves and their unique 
environments, and promotion of safe and responsible caving.
    Our Conservation Policy states that Caves have unique scientific, 
recreational, and scenic values; that these values are endangered by 
both carelessness and intentional vandalism; that these values, once 
gone, cannot be recovered; and that the responsibility for protecting 
caves must be formed by those who study and enjoy them.
    As we stated a little more than two years ago, our membership, 
numbering more than 10,000 in all fifty states, cares deeply about bats 
and the cave environment which is used at times by many of America's 
bat species. The NSS itself, and numerous affiliated cave 
conservancies, both own and manage dozens of caves throughout the 
country, including those managed as bat habitat. Some of our own 
preserves have been infected with WNS, and we have had to respond as 
land managers and conservationists.
    The NSS operates under several Memoranda of Understanding with 
several federal agencies, including the U.S. Fish and Wildlife Service, 
the U.S. Forest Service, the Bureau of Land Management, and the 
National Park Service. Under these auspices, the NSS has provided 
thousands of hours of volunteer value time, labor, and expertise in 
identifying, surveying, mapping, studying, and protecting cave 
resources throughout the country.
    Regarding WNS, we operate one of the most referred to websites on 
WNS. We provided funding for 13 WNS research projects, developed 
training videos on cleaning and disinfecting protocols, and developed 
outreach materials for educating both cavers and the public. These 
include the WNS brochures produced by the U.S. Forest Service and the 
National Caves Association, the trade group of commercial, or show 
caves in the U.S. Our individual members have assisted with field 
surveys of bat hibernacula, summer acoustical monitoring surveys, and 
in the hard science research directly related to the fungus implicated 
in the disease, among many other activities.
    We care deeply about bats. We use them as the universal symbol of 
caving. We also understand from decades of first-hand experience how 
they interface with the overall cave ecosystem, a key to developing 
appropriate and comprehensive cave conservation practices in the 
context of this disease, which affects just one user of the cave 
environment.
Current State of Knowledge
    When we last testified to you, we were literally at the front end 
of this investigation. Much was unknown. No specific public funding had 
been dedicated to WNS. Management was taking an approach of ``an 
abundance of caution.'' We were all scrambling to try to get ahead of 
the disease curve. We had just come from the second Science Strategy 
Meeting, held in Austin, Texas, that had spent three days prioritizing 
research needs for WNS, and developing a budget request that was 
presented to you and your appropriations colleagues.
    Today, we still can't say for certain that the fungus Geomyces 
destructans, is the cause of WNS, despite it being implicated in some 
of the physiological effects of the disease, and with bat mortalities. 
It has been found on a few bats in the U.S. (Missouri and Oklahoma) 
without concurrent histology (no WNS). The fungus is also widespread in 
Europe, but again without the mass mortalities seen in some U.S. 
colonies.
    We know that the disease is transmitted bat to bat. This has been 
proven in the laboratory (USGS), and the spread of the disease to bat 
colonies in many caves and mines which are gated and closed to public 
access demonstrates the efficiency of bat to bat transfer in the field.
    There is no proof of any human transmission of the disease--by 
people, clothing, or gear.
    There is a single, unpublished experiment in two mines where 
purportedly healthy bats from another state were placed into sites 
where the previous year's local bats had died from WNS. Nearly a 
quarter of the bats died at the outset, suggesting some trauma or 
adjustment issues, but others did contract the disease. This suggests 
that at least for some period, the fungus remains viable in the 
environment.
    We do not know what epidemiologists call the Multiplicity of 
Infection (MOI) for the disease. How much of that pathogen (fungus) is 
necessary to infect a host? Disease transmission requires not only a 
pathogen, but a critical mass of that pathogen. It also requires a 
critical mass of hosts. One hypothesis, based on the European colony 
sizes, and observations at smaller sites in the U.S., is that the 
large, tightly massed colonies of certain species of bats help with 
disease transmission. This may mean that small bat colonies may not be 
vectors, or that small numbers of bats may die without significant 
impact. It also may have management implications for the Western U.S. 
where many known bat colonies are small and widely dispersed.
    A third critical element for disease transmission is the 
environment. We have long observed a difference in WNS disease 
progression in caves and mines with varied microclimates. In February, 
2010, a joint expedition of the USFWS, West Virginia Department of 
Natural Resources, and the NSS sent three teams of cavers, biologists, 
and photographers into Hellhole Cave, West Virginia's largest bat 
hibernaculum, and a more than 28-mile-long cave system. Thankfully, 
most bats roost within 3000 feet of the entrance--a dramatic 150' drop 
into a bell chamber.
    Hellhole provided key information on a number of fronts. First, the 
population of Little Brown bats, Myotis lucifugus, was hard hit, as 
expected. Bats had been seen out and about on the winter landscape, a 
sure sign of infection. After the survey, we found nearly half the 
population had died--some 50,000 bats. However, several other species 
were doing well, including the federally-endangered Indiana bat, Myotis 
sodalis, whose population had nearly doubled to 10,000 in the three 
years since the prior survey. Although an estimated 1.7% of the bats 
showed signs of WNS, the population was clearly doing better than its 
cousins. These two bats tend to both prefer colder cave temperatures 
and higher humidity, but the species differences in WNS infection rates 
was striking, suggesting a genetic element to disease spread.
    More striking, however, was the population of federally-endangered 
Virginia Big-eared bats, Corynorhinus Townsendii Virginianus. These 
bats showed no signs of WNS. They also roost in near freezing 
temperatures and low humidity. Unlike the Myotis species, they also 
have a different arousal pattern, suggesting their immune systems may 
not be in as deep a torpor and are thus able to mount a more immediate 
immune response. The population had also doubled since the last survey, 
suggesting a very healthy colony.
    Finally, Hellhole provided strong evidence that the primary method 
of WNS transmission is bat to bat. The cave entrance is privately 
owned, and has been fenced and equipped with electronic monitors for 
years. The last human entrance was in September of 2007.
    I will be bringing with me to the hearing the April, 2011 
Conservation issue of the NSS News, in which I report in detail on the 
Hellhole trip. There is also a second, longer article where I report on 
the overall status of WNS.
    One other area of research and investigation bears highlighting, 
that of potential treatment of the disease. While there are literally 
dozens of substances that can kill this fungus, most of them will also 
kill the bat. Further, bats are a key element in a cave ecosystem, 
providing essential nutrients to other cave-dwelling creatures. Any 
treatment must also respect those species, some of which are also on 
federal and state endangered species lists.
    Even if a vaccine or treatment were found to be effective, the 
logistical challenges of applying treatment to individual bats or 
colonies are staggering to contemplate. Caves can be immense and 
terribly complex. Bats can go places humans can't. Some treatments 
would need repeated applications. With more than 50,000 known caves in 
the U.S., and hundreds of thousands of mines, the mind boggles. It is 
highly unlikely that any mass cure or treatment will be found that 
could be effectively administered. If such treatment were developed, 
its application might best be focused on leading edge colonies or on 
small, declining populations of endangered species as a last-ditch 
effort, and as part of a longer-range conservation and recovery 
program.
    The science that would inform such a recovery program is not there. 
While we are beginning to observe some population stability in sites 
that have been infected for three or four years, we don't know why 
these bats are surviving. This will take genetic and other study of the 
fungus and the disease progression itself, not simply field 
observation.
Why Americans Should Care
    Bats are fascinating. They have provided us with knowledge of 
flight, echolocation, and medicine--such as the blood anti-coagulant in 
the saliva of vampire bats. More to the point, they are the primary 
nighttime predator of insects. Some of these insects are pests, such as 
mosquitoes, although most of these bats prefer larger, juicier prey, 
such as moths and beetles. Some of these are garden, farm, and forest 
pests, and also the transmitters of human diseases. Bats also are the 
primary source of energy and nutrients for cave ecosystems. Without 
bats, these unique environments and other species of animals are at 
risk.
How the loss of bat populations will affect agriculture, forestry and 
        other industries in this country
    One of the other witnesses will speak in detail to this subject, 
but the short answer is, we don't know. We would expect that with the 
loss of such a significant number of bats, the effects would be 
noticeable. However, nature abhors a vacuum. To what extent other 
insectivores, such as birds or other insects, would move to fill the 
void, whether populations would increase and then crash, and at what 
trigger point farmers and foresters would make decisions on the 
increased use and cost of pesticides, would require more research. 
Frankly, that's not where we would urge you to put scarce research 
dollars.
    There is another economic impact that we believe is being 
overlooked by current management responses. Numerous caving events have 
been cancelled, causing a loss of travel and tourism dollars to the 
local economy. For example, the Carter Caves Crawlathon in Kentucky has 
been cancelled for three years running. Typically, 600 people would 
arrive in winter--the off-season--and take up otherwise empty motel 
rooms and campgrounds, shop, dine, buy gas, and more--a clear boost to 
the region. In Iowa, the Maquoketa State Park closed its popular family 
destination caves, resulting in annual paid visitation dropping from 
250,000 to just 60,000.
    The National Caves Association reports a depressed environment 
where people are calling to inquire if the caves are open, or worse, 
asking why they are open. In an economic impact report commissioned by 
the NCA, show cave visitation is more than 6.5 million visitors a year, 
with @ $118 million in revenues, and employing over 4,000 people. The 
economic multiplier effect varies by size of the cave operation, but 
ranges from 1.1 to 1.5 times the revenues. Every new headline that 
trumpets ``Government Closes Caves'' is harmful to commerce, and does 
little to help the bats.
How taxpayer money is being spent on various White-nose Syndrome grant 
        proposals
    Taxpayer money has actually funded a minority of the WNS research 
to date. An appendix to this testimony is a list of Peer-Reviewed 
Published Papers on or Directly Related to White Nose Syndrome. We 
think that speaks volumes about how the federal agencies have handled 
appropriations for WNS.
    The NSS believes that far too much of the money spent on WNS has 
gone to the bureaucracy. This includes significant increases in staff, 
meetings, conference calls, and various plans and documents. U.S. Fish 
and Wildlife, for example has hired a national coordinator, assistant 
coordinator, press person, and at least seven regional WNS 
coordinators. USFWS states that over $11 million of their funds have 
been spent on WNS, with about $3 million for research. That's simply 
the wrong balance.
    Further, our scientists and others are concerned that they do not 
know the criteria by which proposals are sought, reviewed, or awarded. 
In the first two years of the WNS investigation, the Albany conference 
and the Austin conference came away with clearly identified scientific 
research gaps and priorities. The Pittsburgh conference, in May of 
2010, ended with no work product. There is nothing to date from this 
year's May Symposium. As a research grantor, the NSS relies on clearly 
defined science research priorities to allocate our precious grant 
resources. We do not have that any more.
    In 1996, the U.S. Geological Survey was separated out as the 
scientific research arm of the Department of the Interior. We have been 
very impressed with their work and supportive of specific studies 
undertaken and the quality of their work products. We suggest that 
Congress consider USGS as the lead research entity for the WNS 
investigation. We believe the WNS investigation, the academic 
scientific community, and perhaps other federal agencies would benefit 
from such a focus.
    The committee may be aware of appropriations requests for WNS 
research and other activities before other committees of Congress. 
These requests suggest appropriating funding directly to other 
agencies, as well as USFWS as a more efficient and accountable way to 
use taxpayer funds. Half the funds we advocated for two years ago ($1.9 
million appropriated specifically for WNS) were used internally by 
USFWS; the rest weren't awarded to grantees until this past fall. The 
frustration of many in the scientific and caving community is palpable.
Thoughts on the WNS National Plan
    The WNS National Plan was more than two years in the making, and is 
little more than a broad outline. USFWS itself says it's not the plan 
that is important, but the Implementation Plan that follows will be the 
living document. This means there is little to hold anyone accountable 
to, and the vagueness of the document provides an umbrella under which 
virtually anything can happen.
    The NSS submitted more than eleven pages of formal comments to the 
draft posted in the Federal Register. These were prepared by numerous 
people with varied backgrounds in the cave sciences and planning and 
management. Our comments are the second appendix.
    The final document changed little, and USFWS tells us that they 
will not post replies or discussion in the Federal Register, but will 
produce some other document. This is a disservice to the public, some 
12,000 of whom replied. A discussion of the rationale for choosing what 
to change and what not should be provided for open, honest, and 
scientific debate.
    There are three major problems with the National Plan. First, it is 
largely absent any measures for evaluation. How do we know if any 
particular strategy or task is working without assessment? How will we 
know when to stop doing something because it's not working, or do more 
of it because it is?
    Second, the National Plan has no budgetary component. Sure there 
are lots of ideas about a website, database, research, management, 
etc., but no price tag. There is no prioritization or prioritization 
process. We believe this is unrealistic in the current fiscal 
environment, and frankly, renders the plan virtually meaningless.
    Finally, as cave conservationists, the NSS is concerned that a plan 
that is essentially a U.S. Fish and Wildlife document is narrowly 
focused only on biology, due to the mission of USFWS. Yes, WNS is a 
biological phenomenon, but it takes place within a context. Caves are 
laboratories for studies in a variety of sciences--geology, 
paleontology, archaeology, and hydrology -just to name a few. A 
national plan that focuses management entirely on bats, without 
acknowledging the legitimate variety of needs and uses of caves is 
short-sighted in its vision, and in its probability of success.
How closing hundreds of caves and abandoned mines has helped to stop 
        the expansion of this devastating disease
    Simply put, it hasn't. The NSS strongly opposes the blanket closure 
orders that have been issued across the country. We don't believe there 
is any evidence that they have done anything to slow WNS. In March of 
2009, when USFWS issued its caving advisory (still unrevised today), 
many in the organized caving community were willing to call time-out, 
stop caving, or reduce caving to non-bat caves or dedicated project 
caves.
    The message was, we don't know what's going on, and we need to give 
science time to catch up to the disease to get some answers. That was 
two years ago. People have grown impatient as they have not seen 
science catch up, despite all our efforts and in the face of 
significantly short funding. Instead, we continue to see closure orders 
across the country, all in the name of an abundance of caution, and in 
the absence of good science.
    As we stated earlier, after all these years there is no documented 
evidence of human transmission, yet all the management is targeted 
there. The agencies themselves state they can't stop the bats from 
transmitting the disease yet, but they can control people. But not all 
people. Show caves and government-owned commercial caves continue to 
operate. And privately-owned caves--the vast majority in the Eastern 
U.S.--remain open.
    The NSS acknowledges the possibility that humans might be a 
transmission vector, but after five years, if this were done easily the 
disease would have spread far beyond its current boundaries. Indeed, 
looking back to the bat hibernacula map that BCI's Merlin Tuttle 
presented to the committee two years ago, the progress of the disease 
has clearly mirrored the natural movements of bats.
    We also unfortunately believe there is an element of ``defensive'' 
management taking place, as state and federal agencies are under legal 
pressure from advocacy organizations to close all caves and mines and 
radically alter the Endangered Species Act and Federal Cave Resources 
Protection Act. That is not good management, good science, nor good 
public policy. We suggest that Congress look at how the legal system is 
operating and demanding of the time and resources of particularly the 
USFWS to respond to and sometimes settle with taxpayer dollars that 
would better be directed to WNS research.
    Further, there is a strong feeling among our members that cave 
resources on public lands are there for the enjoyment of the people who 
own them and generations to come. The USFS talks about ``multiple 
uses,'' and the National Park Service protects resources for the 
``enjoyment'' of the public. As a sheer matter of fact, many caves are 
not used by bats, which can be quite particular about their roosts.
    Our members have attended many meetings around the country working 
on state WNS response plans and with federal agencies. Often, the 
agencies say they feel they must ``do something.'' But blanket closures 
are the typical response. Thankfully, in some areas, collaborative 
efforts have led to targeting of key bat roosts. Sheer numbers of caves 
and mines make this a far more practical, supportable, and affordable 
approach.
    Blanket closures don't work. Knowledgeable caving organizations are 
aware of them, but many orders aren't followed up with signage, and 
little, if any expensive gating is done. Thus, we see unaffiliated 
people--locals, scouts, church groups, college outing clubs, etc. 
continuing to visit caves. While perhaps administratively attractive to 
issue a paper order, unless followed up with resources for enforcement, 
they are practically unworkable. We have seen vandalism and landowner 
reactions that fly in the face of good cave conservation. While there 
are quite a few great and long-standing partnerships between the NSS, 
cave conservancies, local grottos (chapters) and other affiliated 
caving organizations in some parts of the country, in others, agencies 
issuing closure orders have alienated their most natural allies, our 
members. Not only do the closures not work, they are counterproductive.
    Similarly, closing caves and mines only addressed underground 
roosts. Bats also roost in buildings, in culverts, under bridges, and 
in trees. Attempting to contain a disease on only public lands, with 
little practical enforcement, only underground, and with a myriad of 
exceptions, and where the known predominant means of transmission is 
bat to bat, we believe is folly.
    Arguments have been made that blanket closures can buy time, but 
continuing them where WNS has already marched through seems pointless. 
Implementing them where WNS is nowhere near seems equally futile. In 
those cases, if there is a human vector, the single best strategy is to 
inform any cave visitor--caver, tourist, or scientist--to leave any 
gear used in a WNS site at home.
    The one area where an argument may still have some validity is on 
the leading edge of the disease. Enforcing cleaning and disinfecting 
protocols and temporarily barring visitation, may temporarily delay the 
disease, but if the bats are going to get it, they will spread it, 
closure order or not.
    Rather than continuing in this manner, and absent a major 
scientific breakthrough in treating the disease, we believe the most 
productive course of action may be to focus on the science and 
management of conservation and recovery. We may ultimately be able to 
do little to stop the disease from running its course, but we can focus 
on the survivors and doing all we can to help them recover and 
populations grow again. Funding research that targets understanding how 
and why those bats do survive should be a priority. Funding management 
actions that target significant habitat, both above and below ground, 
and mechanisms to enhance survivability would be critical. Let's not 
waste our efforts doing ``something'' that is of questionable value 
with negative collateral consequences.
Conclusion
    These are tough times for some of our bats, and the NSS remains 
deeply concerned and committed to doing what is possible to help 
mitigate the impact of the disease. However, we do insist that the 
decisions on funding for research and management be based on hard 
evidence, and prioritized use of human and financial resources. The 
impacts of WNS have begun to be felt in the economy, both from the 
disease itself, and from our response to it. We may not be able to 
control the former; we can control the latter. We clearly need a better 
focus to our management decisions, and a way to objectively evaluate 
and prioritize those decisions. We also need a significant increase in 
funding for research. We ask that Congress insist on hard science, 
evaluative measures, and transparency in accountability.
    Finally, we ask that you listen to the people who know caves best 
and have a 70-year history of working to study and protect our 
country's cave resources, including its bats. Working with the 
organized caving community has proven mutually beneficial, and 
continues even in this era of WNS. Examples include the NSS' Mammoth 
Cave Restoration Project--more than 20 years of critical work, the Fort 
Stanton Cave Study Project with the Bureau of Land Management, the 
Windeler Cave Project with the Western Cave Conservancy, which manages 
that cave for the U.S. Forest Service, and the Mark Twain National 
Forest work with the Cave Research Foundation, which has provided an 
immense amount of baseline research on many of the 600 some caves in 
that unit, including a recently-added WNS monitoring component.
    Some of these efforts require cavers with certain levels of 
expertise in areas such as cartography, sciences, technical caving 
skills, and management, but others make use of interested people of all 
skill levels. That is key, for future cave scientists, world-class 
explorers, and even career wildlife managers come from the humble 
beginnings of a first step into a dark void. Maintaining access to that 
experience for future generations helps build an appreciation for the 
resource, and fosters the development of the conservation ethic that is 
needed to wisely protect both caves and bats.
    Thank you again for the opportunity to testify. We'll leave you 
with our mottos, which reflect our long-standing conservation ethic and 
respect for our caves and the things that dwell within.
    Cave softly. Cave cleanly.
    Take nothing but pictures. Leave nothing but footprints. Kill 
nothing but time.
                                 ______
                                 
    [A letter submitted for the record by Mr. Youngbaer 
follows:]

December 26, 2010

Dr. Jeremy Coleman
WNS National Coordinator
New York Field Office
3817 Luker Road
Cortland, New York 13045

Su bject: Comments on Draft WNS National Response Plan--``A National 
Plan for Assisting States, Federal Agencies, and Tribes in Managing 
White-Nose Syndrome in Bats''

Dear Dr. Coleman:

    On behalf of the National Speleological Society, Inc. (NSS), we are 
pleased to submit these comments on the Draft WNS National Response 
Plan--``A National Plan for Assisting States, Federal Agencies, and 
Tribes in Managing White-Nose Syndrome in Bats.''
Overview
    The NSS, founded in 1941, is a non-profit membership organization 
dedicated to the scientific study of caves and karts; protecting caves 
and their natural contents through conservation, ownership, 
stewardship, and public education; and promoting responsible cave 
exploration and fellowship among those interested in caves. We are the 
nation's oldest and largest organization devoted to cave science, cave 
conservation, and cave exploration, with approximately 11,000 current 
members.
    The NSS has a long track record of collaboration with federal and 
state agencies in the areas of cave protection and management and bat 
conservation. We were instrumental in the enactment of the Federal Cave 
Resources Protection Act of 1988. The NSS and its internal 
organizations, including cave conservancies, own numerous cave nature 
preserves, several with endangered bats and other endangered species, 
and manage them appropriately. Some of our own caves in NY and West 
Virginia include bats affected by White Nose Syndrome.
    We have been intimately involved in the investigation of White Nose 
Syndrome (WNS) since its discovery. Our members have funded WNS 
research, through a special NSS grants program, and have actively 
participated in field work, laboratory research, management planning, 
and public education.
    Consistent with our involvement to date, the NSS Cave Conservation 
and Management Section is submitting under separate cover a list of NSS 
members who are willing to serve on the various Working Groups 
identified in the Draft WNS National Response Plan. These individuals 
hail from across the country and provide expertise and experience in 
the Working Group subjects. This is a direct result of your meeting 
with us at our Convention in Vermont on August 3, 2010, and expressing 
the need for experts to participate on the Working Groups. We hope you 
will contact them as soon as possible to discuss the required work.
    The NSS reviewed the U.S. Fish and Wildlife Service (USFWS) draft 
document ``A National Plan for Assisting States, Federal Agencies, and 
Tribes in Managing White-Nose Syndrome in Bats'' (WNS National Response 
Plan), dated October 21, 2010. We understand the USFWS prepared the 
draft WNS National Response Plan to provide guidance for investigation 
and management of White Nose Syndrome (WNS). The draft plan broadly 
identifies goals and action items, and outlines the roles of various 
agencies, to curtail the spread of WNS and to conserve species of bats.
    The NSS reviewed the draft WNS National Response Plan for accuracy, 
completeness, and conformance with the following statutes:
        <bullet>  National Environmental Policy Act of 1969 (42 USC 
        Sec. 4321 et seq.)
        <bullet>  Endangered Species Act of 1973 (7 USC Sec. 136, 16 
        USC Sec. 1531 et seq.)
        <bullet>  Federal Cave Resources Protection Act of 1988 (16 USC 
        Sec. 4301 et seq.)
    Although these statutes, referenced in the draft WNS National 
Response Plan, provide protections for wildlife and natural resources, 
the NSS finds no regulations, guidance documents, policy directives, or 
conventional standards issued to address the preparation or 
implementation of a national response plan covering bat mortality and 
other effects across multiple genera within the order Chiroptera. The 
scale of devastation from WNS appears unprecedented in the United 
States; therefore, the draft WNS National Response Plan is setting a 
ground-breaking standard for controlling and mitigating the destructive 
consequences of WNS.
    The NSS has also reviewed the mission statements of all federal 
agencies which were represented in the plan preparation. These varied 
and potential competing mission statements are critical to enunciate in 
any final document in order for the American public to appreciate the 
competing interests of wildlife protection, scientific investigation in 
many fields, public understanding of natural resources, forest 
vitality, commercial activities, and recreational and other public use 
of our public natural resources.
    While the draft WNS National Response Plan lists the various 
federal and state agencies that assisted in the preparation of the 
document, the document is of and by the U.S. Fish and Wildlife Service 
and is clearly a wildlife-centric document. USFWS's mission and 
statutory authority is not sufficiently broad to appropriately reflect 
all the legitimate interests that must be balanced in addressing White 
Nose Syndrome. We recognize that is not the fault of USFWS, but a 
limitation of its authority and mission. Were the draft plan jointly 
issued by the various federal agencies, we suspect a somewhat different 
draft plan would be before us.
    Thus it falls to us, the NSS to raise these points. Bat 
conservation must be considered in the broader context of cave 
conservation, and even conservation in general. This includes 
protecting cave as well as bat resources, including groundwater, 
precious and beautiful formations, archeological and paleontological 
relics, and the diversity of cave biology beyond bats. It includes 
allowing other cave science and exploration to continue while WNS is 
being addressed. It includes educating the public about bat and cave 
conservation, and it includes inspiring the next generation of 
Americans about the beauty, wonder, and value of caves and bats through 
appropriate exposure to them in the natural environment.
    Any WNS National Response Plan needs to reflect this balance and be 
informed by it. Some real life examples underscore this necessity: 
Should a seismologist conducting vital underground geological research 
in a Missouri cave--a critical seismic area--be prevented from doing so 
because the cave may contain bats? Should fantastic cave formations 
that have stood for centuries of enjoyment be destroyed by vandals 
because conservation-minded cavers who normally monitor the site were 
kept away by management strategies? Should a commercial cave business 
be threatened with financial ruin, affecting not only the owners, but 
the community around them, as well as the lost opportunity to engage 
and educate thousands of members of the public?
    All of these issues deserve to be reflected and balanced in the WNS 
National Plan. They must inform how action items are determined, and 
how scarce financial resources are prioritized. Addressing WNS does not 
and cannot take place in a vacuum. The draft WNS National Response Plan 
sections need to enunciate how these competing concerns are considered, 
weighed, and addressed.
    The NSS offers the following general and specific comments to 
clarify the proposed plan.
General Comments
    1. The WNS National Response Plan provides a broad program-level 
overview of the WNS problem, data needs, investigation methods, and 
response actions. At the program level, the plan divides the WNS issue 
into manageable components to be addressed through seven Working 
Groups. The plan provides Goals and Action Items for each Working Group 
without specifying the methods or implementation expectations to 
achieve the individual goals within the Working Groups.
    Evaluating the progress on each Goal and Action Item may provide an 
assessment of the Working Groups and the status of each component in 
its relationship to the overall WNS issue. However, at the program 
level, the plan does not list any goals or objectives, and the only 
action specified in the document is the creation of the Working Groups. 
The overall goal (or mission statement) of the WNS National Response 
Plan is unclear and not stated. Without a clear definition of goals and 
expectations, how will performance of the national response be 
monitored and evaluated? What are the performance measures, and how 
will success of the national response be gauged? What is the exit 
strategy? Is there a time-table, or is this an open-ended initiative?
    The WNS National Response Plan should be modified to clearly state 
the overall purpose and mission of the plan and to list goals and 
objectives for the program implementation of the plan. Explain how the 
goals and objectives will be implemented and how the overall purpose 
and mission will be achieved. Document and describe what efforts are 
needed at the national level, and outline the anticipated needs and 
actions at the regional, state, and local levels. Explain how these 
efforts will be coordinated; identify coordinating tasks; outline 
expected results; and, explain how the results will be monitored and 
measured. Define how the success of the National Response will be 
measured and assessed.
    The WNS National Response Plan should include provisions to re-
assess the planned responses on a periodic basis through evaluation and 
assessment of initial goals and other identified measures of success. 
How will we evaluate whether or not a specific research path is being 
productive? How do we measure whether a management strategy is working, 
or not, and whether to abandon, alter, or continue it?
    2. The WNS National Response Plan focuses on relationships of 
Federal agencies with each other and with State agencies. The plan does 
not recognize the efforts or roles that private corporations, 
organizations, educational institutions, and even individuals are 
providing to the national response. For instance, individual NSS cavers 
first noted and reported the WNS issue to wildlife biologists. These 
same individuals and organizations already study, monitor, and provide 
forums for public presentation and discussion. The WNS National 
Response Plan should be modified to include a goal to establish 
partnerships with individuals and organizations that support bat 
conservation including, but not limited to, government agencies, 
conservancies, caving organizations, groups and individuals who are 
involved with bat conservation. Upon establishing these partnerships, 
the plan should call for coordinated efforts, possibly through the 
Steering Committee and the Working Groups, with the various groups and 
individuals involved with the national response. The Communication 
Working Group may be used to develop an organization chart and 
formalize lines of communication between Working Groups and between 
agencies and the various individuals and groups involved.
    3. The plan states that a Steering Committee was formed to ensure 
coordination between Federal and State agencies. It is unclear who 
formed the Steering Committee, and the make-up of the committee is not 
identified. Clarification regarding formation of the Steering Committee 
is requested within the ``Specific Comments'' section of this letter. 
However, if the Steering Committee serves to oversee and coordinate the 
Working Groups as part of implementation of the national response, the 
NSS believes that stakeholder involvement with agency representatives 
at the Steering Committee level is desirable and necessary for success. 
Stakeholder groups, such as the NSS, carry enormous resource potential 
and knowledge base concerning all aspects of the WNS issue. We 
recommend including credible stakeholder groups on the Steering 
Committee to assist with coordination and implementation of the 
national response. The NSS stands ready to serve in such capacity with 
an established WNS liaison and working committee operating in all 
regions of the U.S.
    4. The document does not provide a Reference Section. The facts 
presented within the document should be referenced to a source of the 
information. Please provide references within the document and list 
those references in a Reference Section.
Specific Comments
         1.  I. Introduction, Page 1, Paragraph 1. The introduction 
        identifies WNS as a disease responsible for unprecedented 
        mortality in hibernating bats. However, it is unclear who 
        prepared the plan, under what authority, and to what standard. 
        The introduction should be expanded to identify responsible 
        agencies and parties and to explain the basis and organization 
        of the document.
         2.  I. Introduction, Background, Page 1, Paragraphs 2ff. The 
        plan provides a basic descriptive orientation to the WNS issue. 
        However, the description is sparse with regard to information 
        and specific details of the fungus Geomyces destructans and the 
        disease White Nose Syndrome. The Background information section 
        should be expanded to identify effects of the fungus and of the 
        disease and to clarify the relationship of cause and effects. 
        Include the historical development and current status of the 
        disease.
         3.  I. Introduction, Background, Page 2, Paragraph 1. In 
        describing Geomyces destructans, the plan characterizes the 
        preferred environment for the fungus as ``conditions 
        characteristic of bat hibernacula.'' The conditions identified 
        are common for the northeastern U.S.; however, bat habitats and 
        hibernacula in southern and western areas of the U.S. may be 
        warmer and drier than the preferred environment described. This 
        fact may become a critical factor in controlling and mitigating 
        the WNS issue. The text should be modified to clarify that 
        conditions favorable for Geomyces destructans are most common 
        in northern humid regions (such as the northeast).
         4.  I. Introduction, Ecological Significance, Page 2, 
        Paragraph 3. This section summarizes the ecological 
        significance of bats and the impacts of WNS to public health 
        and the environment. However, the information does not explain 
        the role of bats in the ecosystem. The discussion does not 
        document the potential impacts of the disease to bats and only 
        briefly states some of the resulting impacts to public health 
        and the environment. Bats are an integral part of cave and 
        karst ecosystems. Although the bats are directly affected by 
        WNS, the resulting impacts put entire cave and karst ecosystems 
        at risk or even into crisis. The discussion should be expanded 
        to better identify the role of bats in the ecosystem and to 
        provide additional information regarding potential impacts 
        resulting from the demise of bats.
         5.  I. Introduction, The Planning Process, Page 2, Paragraph 
        4. This section justifies the need for a national response 
        plan. The text lists the following factors as critical factors 
        requiring a national response: (1) The mobility of bats, (2) 
        The rapid spread of WNS, (3) The potential for human-assisted 
        transmission, and (4) The severity of its (WNS) consequences. 
        It is unclear whether the human-assisted vector of the disease 
        is as much of a critical factor as bat-to-bat transmission or 
        other environmental factors and vectors. If justification for a 
        national response plan requires identification of disease 
        vectors, the most important vectors should be identified with a 
        clear plan to address those vectors. The text should be 
        modified to justify the need for a national plan based on the 
        severity and consequences of WNS. Any critical factors or 
        vectors that require management under a national plan should be 
        explicitly identified with an outline of required actions and 
        mitigation.
         6.  I. Introduction, The Planning Process, Page 3, Paragraph 
        1. The plan describes authorities under the statutes referenced 
        in this letter. It is unclear whether any guidance or 
        regulations exist addressing national response plans. If such 
        documents exist, the plan should provide references and 
        describe applicable sections and requirements.
         7.  I. Introduction, The Planning Process, Page 3, Paragraph 
        2. A. The plan outlines the historical development of 
        collaboration between agencies responding to WNS. The text 
        refers to early collaborations and formal requests. In order to 
        understand development of the response to the WNS issue, these 
        early work efforts and requests for assistance should be 
        documented in the text with reference citation.
                B.  The text indicates that the USFWS and U.S. 
                Geological Survey (USGS) response to the requests for 
                assistance includes advice to organizations and the 
                scientific community ``with appropriate expertise and 
                authorities.'' It is unclear exactly what activities 
                and expertise the USFW and USGS are providing under 
                this plan. The discussion should elaborate what 
                expertise, authorities, or other actions the agencies 
                are providing as part of the national response.
                C.  The text should be amended to read that it is 
                ``incumbent upon wildlife management agencies to advise 
                and consult (emphasis added) non-government 
                organizations and those in the scientific community 
                with appropriate expertise and authorities to assist in 
                mitigating this threat.'' The plan should recognize 
                this is a two-way street, taking expertise where it is 
                found.
         8.  I. Introduction, Origin of the Plan, Page 3, Paragraph 3. 
        This section describes the formation of the Steering Committee. 
        However, the text does not provide details regarding the make-
        up, functions, or activities of the committee. The section 
        should be expanded to identify the Steering Committee and 
        describe in more detail the committee's function and 
        activities, including its authorities.
         9.  I. Introduction, Implementing the Plan, Page 3, Paragraph 
        4. A. The plan calls for State agencies to implement 
        surveillance, monitoring, and management programs. It is not 
        clear how implementation of these programs will be funded. The 
        text states that federal agencies will provide tools and 
        financial assistance when available. For States to successfully 
        implement the plan, the expectations, methods, and funding must 
        be provided to the states. Please explain these items within 
        the plan and provide references for additional information.
                B.  The Plan focuses on the States to implement the 
                surveillance, monitoring, and management programs. 
                However, it is not clear whether all States are 
                technically and fiscally capable of establishing these 
                programs. Will this approach result in 50 different 
                programs? The Plan should consider development of the 
                State plans and how the WNS National Response functions 
                in relation to the States.
        10.  I. Introduction, Implementing the Plan, Page 3, Paragraph 
        5. This section of the Plan calls for general principals of 
        epidemiology, ecology, and conservation biology to inform 
        national response actions. The text mentions gains in knowledge 
        about WNS and its etiology with large gaps still apparent. The 
        plan should provide details regarding the understanding of WNS 
        and the associated knowledge base. Who conducted the principal 
        research, how did this occur, what do the results determine? 
        Identify what gaps exist in our knowledge base and explain how 
        these gaps are being addressed.
        11.  I. Introduction, Implementing the Plan, Page 4, Paragraph 
        1. A. The text refers to basic components of a standard outline 
        for response plan, including objectives, management tools, 
        management of contaminated environments, results monitoring, 
        restoration plans, and budget. However, it is unclear where 
        these components are in the WNS National Response Plan, 
        including results and performance measures. The Plan should be 
        modified to clearly address these components.
                B.  The text suggests that funding is tied to the State 
                Response Plans; however, it is not clear what funding 
                is available. The text should specify the expectations 
                for the State Response Plans and identify the funding 
                available.
        12.  II. WNS Response Strategy, Page 4, ff. A. The plan 
        outlines Human Health Implications, General Practices, and 
        Elements of the National Plan. The Plan does not identify 
        directives or mandates that the Plan is required to address. 
        Furthermore, the goals and performance measures of the National 
        Response Plan are unclear. The Response Strategy should explain 
        how the directions from the Steering Committee are implemented. 
        The WNS Response Strategy should be an extension of the overall 
        goals and objectives derived from the steering committee. This 
        section should describe in detail the gaps in information, the 
        necessity of collecting this data, what is hoped to be 
        achieved, and how progress will be measured.
        13.  II. WNS Response Strategy, Human Health Implications, Page 
        4, Paragraph 3. A. This section discusses WNS human health 
        risks. The text calls for ``safe work practices and personal 
        protective equipment'' for bat researchers. The Plan does not 
        outline or provide reference to applicable guidance on these 
        matters. The discussion should identify safe work practices and 
        reference appropriate personal protective equipment. Further, 
        this section is silent on the dangers to humans from exposure 
        to chemicals cleaning and disinfecting clothing, gear, and 
        equipment. Perhaps the protocols themselves should be revised 
        to include such information
                B.  The Plan states that additional research is 
                necessary to investigate potential WNS human health 
                risks. The Plan should identify what areas of research 
                are needed and how that aspect is addressed in the 
                National Response Plan.
        14.  II. WNS Response Strategy, General Practices, Page 5, 
        Paragraph 1. A. The Plan focuses on the human vector for 
        disease transmission. However, it is unclear whether the human 
        vector is as critical of a vector as bat-to-bat or other 
        environmental vectors. The Plan should address other, and 
        possibly more critical, vectors in an effort to curtail the 
        spread of the disease.
                B.  The Plan provides recommendations for field 
                activities to prevent the spread of WNS. It is unclear 
                whether either the USFW or the USGS is able to offer 
                assistance for meeting and maintaining the recommended 
                actions. The Plan should identify any assistance that 
                the federal agencies can offer to States and 
                Stakeholders affected by the WNS issue.
        15.  II. WNS Response Strategy, Elements of the National Plan, 
        F. Disease Surveillance Working Group, Page 7, Paragraph 1. The 
        stated purpose of this group is to develop standards for WNS 
        surveillance. It is not clear who is responsible for 
        coordinating data collection across the nation. The Plan should 
        be modified to identify who will coordinate national data 
        collection and by what means this data will be obtained, 
        reviewed, and disseminated.
        16.  III. Action Plans, Page 7, Paragraph 3. The plan 
        establishes Working Groups to address elements of the national 
        response. However, certain specifics regarding the groups are 
        missing from the description. What is the make-up of the 
        Working Groups; how are they established; how will the efforts 
        be coordinated; what are the expected activities and 
        anticipated results? The National Plan should provide more 
        detail concerning the Working Groups and whether Regional 
        Subcommittees may be formed to address region-specific needs, 
        goals, and issues.
        17.  III. Action Plans, A. Communication and Outreach, A.1. 
        Overview, Page 7, Bullet 1. The National Response Plan 
        acknowledges the investigative focus of Federal and State 
        agencies researching the WNS issue. However, it appears that 
        many private individuals, corporations, and organizations are 
        also investigating the WNS issue. The WNS National Response 
        Plan should recognize that non-government organizations are 
        part of the investigative community. In order to make a broader 
        appeal and a larger chance of success, the national plan should 
        be modified to recognize the role of non-government 
        organizations as part of a coordinated effort and capable of 
        making substantial contributions.
        18.  III. Action Plans, A. Communications and Outreach, A.2. 
        Goals, Page 8. A. The plan lists 4 goals for the Communications 
        and Outreach Working Group. It appears that this group could 
        provide a conduit of information between the Working Groups and 
        outside audiences. The group may disseminate information 
        gathered through the Working Group efforts into the WNS 
        research database. In order to assist in this effort, it is 
        suggested that the group create a single website where partner 
        agencies and organization can post and access peer-reviewed 
        publications and data. Information from all the Working Groups 
        should be provided on this website.
                B.  In addition to dissemination of information, an 
                important part of communication is feedback into the 
                national response. Currently, the WNS National Response 
                Plan does not provide for external comments or 
                observations back to the national response. It is 
                suggested that the Communications and Outreach Working 
                Group may provide for this 2-way communication through 
                a website-based email contact and through other 
                formalized lines of communication.
        19.  III. Action Plans, B. Data and Technical Information 
        Management, Goal 2, Page 10. This goal appears to call on the 
        Data and Technical Information Management Working Group to 
        establish and maintain an information website. While data 
        collection and management is clearly the focus of this group, 
        the NSS suggests that information dissemination, including 
        website construction and maintenance may be better coordinated 
        through the Communications and Outreach Working Group. Any 
        databases maintained by the Data and Technical Information 
        Management Working Group should be linked into the website.
        20.  III. Action Plans, C. Diagnostics, C.1. Overview, Page 10. 
        The WNS National Response Plan focuses virtually exclusively on 
        the relationship of Geomyces destructans (G. destructans) as 
        the causative agent and White Nose Syndrome as the effect, as 
        evidenced in the first statement of this section. There is 
        strong circumstantial evidence for this cause and effect 
        relationship. For instance, studies show that fungal growth on 
        body parts is G. destructans; G. destructans is found in 
        affected cave sediments but not in unaffected cave sediments. 
        Also, bats placed in an affected mine acquired WNS. However, 
        standard disease research practices require the Koch's 
        Postulates be satisfied before establishing the cause-effect 
        relationship. There remains a possibility that a bacterial or 
        viral or some other agent may be the primary pathogen and that 
        the G. destructans infection is secondary. The NSS is unaware 
        of any research which infected bats from a pure culture of G. 
        destructans. In fact, recent analyses show bats infected with 
        G. destructans fungus but not the disease White Nose Syndrome. 
        Unless Koch's Postulates are satisfied, research should 
        continue into other potential primary pathogens and not a total 
        focus of the national response to G. destructans, lest our 
        total efforts are thrown toward the wrong causative agent. 
        Until G. destructans can be shown to be etiologic in WNS, 
        searches should continue for other agents. The goals under the 
        Diagnostics Working Group should be revised to conduct or 
        support research to satisfy Koch's Postulates to show the cause 
        and effect relationship between G. destructans and WNS.
        21.  III. Action Plans, C. Diagnostics, C.2. Goals and Action 
        Items, Goal 4, Page 11. The Action Item for this goal as stated 
        is to work with the ``Scientific and Technical Information 
        Group.'' However, the Plan does not list a Scientific and 
        Technical Information Group. If the intended reference is the 
        Data and Technical Information Management Working Group, the 
        text should be so modified.
        22.  III. Action Plans, D. Disease Management, D.1. Overview, 
        Page 11. Some of the possible response actions include chemical 
        or biological treatments. However, it is not clear whether 
        there is a clear mechanism to evaluate these methods. Even 
        after appropriate laboratory and field-scale pilot tests, the 
        approach may not work or show unintended consequences. Is there 
        a mechanism within the plan to determine this approach or 
        treatment methods should be abandoned? The Plan should include 
        an evaluation process for any selected treatment remedy.
        23.  III. Action Plans, D. Disease Management, D.2. Goals and 
        Action Items, Goal 2, Page 12. A. This goal is to reduce the 
        risk of WNS transmission to bats by humans. Implicitly, this 
        goal supports research into WNS transmission by human-to-
        environment-to-bats. However, this aspect of data acquisition 
        is not explicitly stated in the plan. As indicated by other 
        goals for this working group, other vectors for disease 
        transmission will likely be found to be more critical for 
        control than the human vector. The plan should establish a 
        mechanism or system to evaluate the various vectors with regard 
        to their importance, feasibility for control, and cost or 
        implications of control.
                B.  The Action Items under this Goal focus on human 
                interaction with the bat and cave environment. However, 
                commercial trafficking in bat guano for fertilizer 
                could spread the disease if guano con be a source of 
                WNS etiologic agents (such as G. destructans). If bat 
                guano proves to be a vector for disease transmission, 
                then regulation is called for imports, exports, and 
                interstate trafficking of bat guano. The Action Items 
                under this goal should be modified to study or support 
                research of the potential for bat guano to contain WNS 
                infective agents and its role as a disease vector.
        24.  III. Action Plans, E. Etiology and Epidemiological 
        Research, E.2. Goals and Action Items, Goal 1, Page 13. The 
        stated goal is to review current knowledge to identify data 
        gaps, and the listed Action Items cover expert review and 
        research questions. A very critical aspect that should be a 
        priority for the national response is to determine whether 
        otherwise healthy individuals show evidence of exposure to G. 
        destructans, and if so, do these individuals produce antibodies 
        and are these antibodies protective? This determination will 
        require development of an enzyme-linked immunosorbent assay 
        (ELISA) technique to detect the presence of the antibody in a 
        blood sample. Recent studies show that apparently there are 
        bats exposed to and carrying G. destructans that do not develop 
        WNS. Developing an ELISA test for antibodies in bat serum 
        against G. destructans will help answer several important 
        questions, including whether bats can mount an immune response 
        to antigens from G. destructans. Also, this test is important 
        to determine if there are asymptomatic carriers who could be a 
        reservoir for infection. All this information is critical in 
        any attempt to manage the WNS disease. The goals under the 
        Etiology and Epidemiological Research Working Group should be 
        revised to conduct or support research to develop an ELISA test 
        for G. destructans antibodies.
        25.  III. Action Plans, F. Disease Surveillance, F.2.Goals and 
        Action Items, Page 15, Goal. A. The goal is to create a nation-
        wide disease surveillance program. As previously mentioned 
        herein, the National Response Plan should identify funding this 
        effort and explain how that funding is provided to the States. 
        If there are elements or action items that necessary for 
        implementation and funding of the surveillance program, these 
        components should be list in this section.
                B.  Action Item 3 is confusing as written. Perhaps this 
                Action Item should be reworded ``Integrate surveillance 
                efforts and research with other subcommittees.''
        26.  III, Action Plans, G. Conservation and Recovery, G.2. 
        Goals and Action Items, Page 16, Goal 4, Action Item 1. The 
        Action Item call for the group to work closely with the 
        ``Research Working Group.'' However, the Plan does not list a 
        Research Working Group. The text should be modified to 
        reference the intended Working Group.
    The NSS appreciates this opportunity to comment on the draft WNS 
National Response Plan. The NSS welcomes any further discussion for 
planning or implementation of the national response. Please contact me 
for further discussion or to clarify any of these comments. My 
telephone number is (802) 272-3802, and my email address is 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="55223b26393c343c263a3b1536342330267b3a27327b">[email&#160;protected]</a>

Sincerely,

Peter Youngbaer
NSS WNS Liaison

Copied to:
Gordon L. Birkheimer, NSS President
NSS Board of Governors
                                 ______
                                 
    Dr. Fleming. OK. Thank you for those words of wisdom, Mr. 
Youngbaer. Finally, Dr. Boyles, you have five minutes, sir.

 STATEMENT OF DR. JUSTIN G. BOYLES, DEPARTMENT OF ECOLOGY AND 
         EVOLUTIONARY BIOLOGY, UNIVERSITY OF TENNESSEE

    Dr. Boyles. Thank you. Chairman Fleming, Ranking Member 
Bordallo, and Members of the Subcommittee, thank you for 
allowing me to testify today. I have conducted research on bats 
for nearly 10 years, and I have been involved with research on 
White-Nose Syndrome since shortly after it was discovered.
    There are 45 species of bats in the United States, 42 of 
which are insectivorous. The bat species affected by the White-
Nose Syndrome are the primary predators of night-flying 
insects, and the top predators and their respective food webs.
    Insectivorous bats in the United States are well known 
predators of pest insects, including cotton bollworms, corn 
rootworms, spotted cucumber beetles, spruce budworns, cutworms, 
leafhoppers, and many others.
    These pests attack a multitude of agricultural, 
horticultural, and forestry products, including from a long 
list: cotton, corn, potatoes, tomatoes, cucumbers, squash, 
melons, pumpkins, apples, strawberries, beets, roses, spruce, 
and fir trees.
    Two studies illustrate must how many insects are consumed 
by bats. A study from Indiana, which was mentioned, reports 
that an average-sized colony of 140 big brown bats may consume 
on the order of 1.3 million pest insects each summer.
    To put this in some perspective, there are roughly 20,000 
big brown bats that roost in the buildings in Fort Collins, 
Colorado alone. A second study, this from the Northeastern 
United States, suggests that a single little brown bat may 
consume four to eight grams of insects each night during the 
summer.
    Extrapolating these values to the one million bats that 
have died to date from White-Nose Syndrome means that between 
1.5 and 3 million pounds of insects are going uneaten each 
summer in the area affected by White-Nose Syndrome.
    Economic estimates of the value of bats are rare, but two 
studies from cotton dominated landscapes in Central Texas 
suggest that bats are worth between $12 and $174 per acre per 
year, and depending on a number of factors, including the 
density of crop pests in a given year.
    While these values will obviously vary across the United 
States because of differences in the monetary value of crops, 
the amount of pesticides used, and the bat and insect 
communities in each area, a simple extrapolation of these 
values to the whole of agriculture in the United States 
suggests that bats may be worth between $3- and $53 billion per 
year to the national economy.
    Importantly, bats have also been shown to limit herbivore 
in insects or by insects in both tropical and temperate 
forests. However, the estimates that I have just given you do 
not consider the value of bats to the forestry industry, nor do 
they consider the costs associated with the secondary effects 
of pesticide use on ecosystems and public health.
    Thus, all available evidence suggests that bats are 
extremely valuable to the economy, and I would venture that 
bats are the most economically important non-domesticated 
mammals in the United States.
    Regarding the closing of caves and mines, which has been an 
obvious controversial step in the management of White-Nose 
Syndrome, several people have argued that there is little or no 
evidence that exists that cave closures have slowed or will 
slow the spread of White-Nose Syndrome.
    While this statement is factually correct, or may be 
factually correct, it is misleading because in my opinion, it 
is a proposition that is exceedingly difficult to test 
scientifically, and therefore it will be difficult to either 
refute or to support.
    The evidence cited by other witnesses on the panel, among 
other quickly mounting evidence, suggests that human 
facilitated movements of Geomyces destructans, the fungus that 
we are talking about, are possible.
    Human facilitated dispersal events may be 
disproportionately more devastating than bat facilitated 
dispersal events because of the distances that humans can move 
the fungus.
    For example, even a single introduction of Geomyces 
destructans by humans into the Western United States could lead 
to the collapse of an entirely new bat community, a fate which 
is unlikely in the next 5 to 10 years given the current rate of 
expansion of White-Nose Syndrome.
    Thus, in my professional opinion the risk of cave 
visitations to both ecosystems and the economy far outweigh the 
possible benefits, and I believe the cave closure policies 
currently implemented by Federal and state agencies are both 
warranted and prudent.
    Finally, in the roughly five years since White-Nose 
Syndrome has emerged, researchers have amassed an impressive 
body of knowledge about the disease. Given the scale of the 
problem very little funding has been available, and we have 
done a lot with very little.
    Still, large gaps remain in our understanding of White-Nose 
Syndrome, and many of these gaps are vital to the control of 
Geomyces destructans, and in conserving and restoring the 
populations of insectivorous bats. The only way to fill these 
gaps is through well targeted and well coordinated scientific 
research, a process that is unfortunately neither cheap nor 
quick.
    To be frank, limited funding and a lack of coordination 
hindered our progress to date. The recently released national 
plan by the United States Fish and Wildlife Service addresses 
some of these shortcomings, especially those related to the 
communication between the various parties.
    However, as is often the case, funding has been and will 
remain the most limiting factor in our research on White-Nose 
Syndrome. I believe the ecological and economic ramifications 
of a collapsing bat community are so severe as to warrant a 
larger investment of personnel and funding to develop a better 
understanding of this devastating wildlife disease.
    Only with an increased understanding will we be able to 
develop solutions to the problem in time to make a difference. 
Thank you, and I welcome the opportunity to answer any 
questions.
    [The prepared statement of Dr. Boyles follows:]

 Statement of Justin G. Boyles, Ph.D., Post-Doctoral Research Fellow, 
                   University of Tennessee, Knoxville

    Thank you for allowing me to testify today. I have conducted 
research on bats for nearly 10 years and have been involved with 
research on white-nose syndrome (WNS) since shortly after it was 
discovered.
    There are 45 species of bats in the United States, 42 of which are 
insectivorous. The bat species affected by WNS are the primary 
predators of night-flying insects and are the top predators in their 
respective food webs. Insectivorous bats in the United States are well-
known predators of pest insects including cotton bollworms, corn 
rootworms, spotted cucumber beetles, leafhoppers, cutworms, and spruce 
budworms, among many others. These pests attack a multitude of 
agricultural, horticultural, and forest products, including cotton, 
corn, potatoes, tomatoes, cucumbers, squash, melons, pumpkins, apples, 
strawberries, beans, celery, eggplant, beets, roses, and spruce and fir 
trees. Two studies illustrate how many insects are consumed by bats. A 
study in Indiana reports that an average-sized colony of 150 big brown 
bats (Eptesicus fuscus) may consume 1.3 million pest insects over a 
summer. Big brown bats are ubiquitous in the natural and man-made 
landscape--for instance, researchers estimated that approximately 
20,000 big brown bats summer in Fort Collins, Colorado--meaning the 
species confers these benefits throughout our environment. A study from 
the northeastern United States suggests that a single little brown bat 
(Myotis lucifugus), the species most commonly affected by WNS, can 
consume 4-8 grams of insects each night during summer. Extrapolating 
these values to the 1 million bats that have died from WNS to date 
means that between 1.5 and 3 million pounds of insects are uneaten each 
summer in the area affected by WNS. Economic estimates of the value of 
bats are rare, but two studies from cotton-dominated landscapes in 
central Texas suggest bats are worth between $12 and $174 per acre, 
depending on a number of factors including the density of crop pests in 
a given year. While these values will obviously vary across the United 
States because of differences in the monetary value of crops, the 
amount of pesticides used, the bat and insect communities in the area, 
and several other factors, a simple extrapolation of these values to 
the whole of agriculture in the United States suggests bats may be 
worth between $3 and $53 billion/year to the national economy. Bats 
have been shown to exert strong top-down control on insect populations 
in both tropical and temperate forests and importantly, these estimates 
do not consider the value of bats to forestry or secondary effects of 
pesticide use on the ecosystem and public health. Thus, all available 
evidence suggests that bats are extremely valuable to the economy and I 
would venture that bats are the most economically important non-
domesticated mammals in the United States. While there are significant 
ecological and economic reasons to be deeply concerned about the impact 
of WNS on bat populations, in my opinion, we also should be concerned 
with bat conservation based on moral and ethical responsibilities to 
conserve our natural resources.
    The closing of caves and mines has been a controversial step in 
management of WNS. While I agree that bats are likely the most common 
distributor of the fungus, I believe cave closures are both necessary 
and justified because evidence implicates human-facilitated movements. 
During my research, I have spent considerable time in caves and mines 
in the eastern United States. Therefore, I understand the draw of 
caving and sympathize with the standpoint of the National Speleological 
Society. However, as a scientist, I must respectfully disagree with 
their views on cave closures. They have argued that little evidence 
exists that cave closures have slowed or will slow the spread of WNS. 
While this statement may be factually correct, it is misleading 
because, in my opinion, it is a proposition that is impossible to test 
and thereby either support or refute. If Geomyces destructans, the 
fungus associated with WNS, is verified to have originated in Europe as 
the circumstantial evidence and emerging data on the genetics of the 
fungus suggest, human-facilitated movements are very likely the 
explanation for the appearance of G. destructans in the United States 
in the first place. Thus, long-distance movements of G. destructans by 
humans are likely possible. Further, research has shown that G. 
destructans can survive in and on clothing and caving gear, providing a 
possible path for long-distance, human-facilitated expansion of the 
disease. Human-facilitated dispersal events may be disproportionately 
more devastating than bat-facilitated dispersal events because of the 
distances humans can move the fungus. Even a single introduction of G. 
destructans by humans in the western United States could lead to the 
devastation of an entirely new bat community. Such a collapse is 
unlikely in the next 5 years given the current rate of bat-driven 
expansion of WNS. More than a dozen species of hibernating bats occur 
in the western United States and are currently unaffected by WNS. There 
may be natural geographic barriers to the movement of hibernating bats, 
such as the Great Plains, that limit bat-facilitated, but not human-
facilitated dispersal of G. destructans. Further, cave disturbances are 
implicated as one of the driving factors behind historical declines in 
bat populations because they upset the delicate energy balance that 
bats must maintain to survive winter. Given that WNS also appears to 
upset this delicate balance, the added stress caused by cave visitation 
could compound the effects of the disease. Thus, in my professional 
opinion, the risks of cave visitations to both ecosystems and the 
economy far outweigh the possible benefits gained by relatively few 
people and I believe the cave closure policies currently implemented by 
Federal and State agencies are both warranted and prudent.
    In the roughly five years since WNS emerged, a tiny number of 
researchers has amassed an impressive body of knowledge about the 
disease. Given the scale of the problem, very little research funding 
has been available to researchers and we have done a lot with very 
little. Still, large gaps remain in our understanding of the putative 
pathogen, the physiology of bat hibernation, and how the two interact 
to result in the patterns of mortality seen in WNS-affected 
populations. Many of these information gaps are vital to attempts to 
control G. destructans and conserve and restore populations of 
insectivorous bats. The only way to fill these knowledge gaps is 
through well-targeted and well-coordinated scientific research, a 
process that is unfortunately neither quick nor cheap. To be frank, 
limited funding and a lack of coordination have hindered our progress 
to date. The recently released National Plan by the U.S. Fish and 
Wildlife Service addresses many of these shortcomings, especially those 
related to communication between the various parties involved. However, 
as is often the case, funding has been and will remain the most 
limiting factor in our research on WNS. I believe the economic and 
ecological ramifications of collapsing bat communities are so severe as 
to warrant a larger investment of personnel and funding to develop a 
better understanding of this devastating wildlife disease. Only with an 
increased understanding will we be able to develop solutions to the 
problem in time to make a difference.
                                 ______
                                 
    Dr. Fleming. Thank you, Dr. Boyles, and again, excellent 
information. Again, I want to thank all of our witnesses for 
their valuable contributions to this hearing during National 
Pollinators Week.
    This is an extremely deadly fungus, and I hope Federal, 
state, and local, and non-governmental organizations will 
continue to work together to find a way to stop the spread of 
this disease.
    At this point, we will begin Member questions of the 
witnesses, and to allow all Members to participate and ensure 
that we hear from all of our witnesses today, Members are 
limited to five minutes for their questions.
    However, if Members have additional questions, we can have 
more than one round of questioning, and often do. I now 
recognize myself for five minutes. Just some quick questions 
just so I can get a better understanding.
    The organisms name is Geomyces destructans; is that 
correct, panel? And I am not sure who is best trained to answer 
this question, but I will take it from anyone, and Dr. Boyles 
certain seems to know a lot about the pathology of this, how 
does it actually kill the bat?
    Dr. Boyles. This is something that we don't know, and 
actually if I could defer. Dr. Blehert is probably the correct 
person to answer this question.
    Dr. Fleming. OK.
    Dr. Blehert. Thank you. So that does represent an active 
area of research. When we initially discovered it, we described 
the fungus as a dermatophyte, which is as you probably know 
defines a fungus that infects the dead skin layer, the dead 
skin layer at the surface of the skin.
    This fungus turns out to be quite different. It is actively 
invasive, and it invades and destroys living skin tissues. A 
recent publication put out by our group of researchers surmises 
that this fungus causes--well, we know that the focus causes 
devastating damage to bat wings.
    Bat wings skin represents over 85 percent of the surface 
area of a bat. So the skin of their wings performs much more 
than just a simple barrier function. It is also critical for 
many physiological functions, ranging from water balance, 
passive exchange of air, and other gases, temperature 
regulation, blood pressure regulation.
    And so we believe that it is at the heart of this 
disruption of these numerous physiological processes that are 
dependent on bat wings that are the mechanism of mortality.
    Dr. Fleming. OK. And I understand that this organism, the 
fungus, has been endemic to Europe, and that many, if not all, 
species have been resistant to it in the past, but yet we have, 
I understand, around 8 or 9 species here that are not resistant 
to it, and that die at a rate of almost 100 percent.
    Do we have an understanding of why certain species and 
certain locations, geographical locations, that species and 
organisms are resistant to the organism?
    Dr. Blehert. I think that it may come down to much more 
than just differences within the species themselves, but since 
all diseases involve an interaction between a pathogen, and in 
this case, Geomyces destructans, a bat host, and the 
environment that bats inhabit, I think what research will 
ultimately support is that bats inhabit different ecological 
niches within caves.
    So, for example, a bat that inhabits a colder and dryer 
area may be less susceptible, compared to a bat like a little 
brown bat that inhabits a slightly warmer and very humid 
portion of the cave.
    Additionally, as the number of bats decline, disease 
transmission dynamics change dramatically. There are fewer 
hosts available for the fungus. Hosts allow that pathogen to 
amplify, and so as the number of hosts is reduced, we are 
finding that our American bat populations, which were once 
quite numerous, are actually becoming more like the European 
bat populations, in which bats are less numerous, and further 
and fewer in between.
    So it may be that not all of our populations will go to 
zero, and that we will see a much different topography with 
regard to hot bats persist with this fungus, much as they are 
seeing today in Europe.
    Dr. Fleming. Is that to say that the main host are the 
affected species?
    Dr. Blehert. Yes. So, for example, we look at the little 
brown bat, which was once very numerous in these caves, is 
perhaps an amplifying species. The fungus grows to a certain 
degree in soil, but it grows dramatically on bats.
    So in the presence of a lot of bats, you can go from very 
few fungal infectious agents to literally trillions, and then 
that agent remains infectious in the cave, and associated with 
soil, carcasses, et cetera.
    And as carcasses are removed, or as they further 
deteriorate, those spores will ultimately--spore burdens should 
decrease over time.
    Dr. Fleming. I see. Have there been any attempts, from a 
research standpoint, to actually spray or treat with antifungal 
treatments in caves just to see if reducing the spores can 
actually make a difference in survival?
    Dr. Blehert. There has been some work along those lines in 
the laboratory, but it is very difficult to transition some of 
these treatments from the laboratory to the caves. One of the 
very real concerns is that fungal diseases are on the rise 
among humans, and there are very few pharmacological compounds 
suitable for treating fungal diseases in humans.
    So it perhaps could be very dangerous to widely broadcast 
these compounds in the environment, and then risk breeding 
resistance to these compounds among wild animals, or among 
fungi in the environment, and perhaps creating more super bugs 
that would pose a risk to humans. So there are a lot of 
unintended consequences that we have to consider.
    Dr. Fleming. And finally is there any natural predator for 
the fungus itself?
    Dr. Blehert. I would imagine that there likely is if you 
make an analogy to chestnut flight. There are some what are 
call microviruses, and so viruses that can weaken the fungus, 
and it is sort of a constant battle between the fungus, which 
can sexually recombine, and change, and the viruses have to 
keep up. But as was mentioned by Mr. Pena, biocontrol is 
another active area of research.
    Dr. Fleming. OK. Most interesting. Let's see. Next, I will 
recognize the Ranking Member for five minutes. And the 
gentlelady asked if we will have one round or more than one 
round, and we have three Members here. Mr. Wittman, what is 
your interest? Would you like to have a second round?
    Mr. Wittman. I am open for multiple rounds.
    Dr. Fleming. As am I, and so if we don't get them covered 
the first time, we will come back around.
    Ms. Bordallo. All right. Thank you, Mr. Chairman. My first 
question is for Dr. Chavarria. What is the scientific basis for 
using bat cave closures to manage the White-Nose Syndrome? And 
is it possible that current closures have limited the spread of 
the White-Nose Syndrome?
    And I know that a lot of these caves are on private 
properties. How successful have you been in closing those 
caves, and what percentage of those caves are still open? If 
you could answer that.
    Dr. Chavarria. Yes, Ms. Bordallo, and I am going to ask Dr. 
Blehert to elaborate on the cave closure. But you heard the 
Chair, and that the White-Nose Syndrome in Kentucky, and they 
have strong support from Kentucky private landowners to close 
caves.
    The Park Service has allowed their managers at the regional 
level to close or not close their caves as necessary. The 
Service did close all of our caves.
    Ms. Bordallo. All of the public caves?
    Dr. Chavarria. Well, most of our caves are not open to the 
public. They are just open for research, and they are dedicated 
for protecting endangered bats.
    Ms. Bordallo. Doctor, if you can expand on that?
    Dr. Blehert. With regard to the scientific basis, all 
infectious diseases--whether it is common cold viruses among 
children in day care centers, or Geomyces destructans among 
bats in a cave--involve a triad of interactions between an 
environment, and a susceptible host, and a disease agent.
    And in the case of White-Nose Syndrome, the infectious 
agent is Geomyces destructans, and the environment is caves. We 
have shown in my laboratory that the fungus does remain viable 
in soil in the bottoms of caves, and so based on basic 
epidemiological principles, restricting people to move in and 
out of those caves provides a means to prevent the persistent 
and environmentally resistant spores that the fungus produces 
for the purpose of reproducing itself, both out of infected 
caves and into new sites, or into caves.
    So it is a two-way street. It is not only preventing humans 
from accidentally introducing it to a site, but mounting 
molecular forensic evidence being developed by my laboratory 
collaboratively with other groups, indicates that the likely 
source of this fungus in North America is Europe.
    And the most likely means by which that happened was 
through a human transmission event.
    Ms. Bordallo. So have you seen a decline?
    Dr. Blehert. I think it would be----
    Ms. Bordallo. Since the closures?
    Dr. Blehert. Right. I might defer to the Fish and Wildlife 
Service to answer that.
    Ms. Bordallo. Is there anyone who can answer that? Has 
there been a decline?
    Mr. Coleman. That is a difficult thing to answer. What we 
have not seen since the management of cave closures was 
instituted was a major jump, and that is really what we are 
trying to target with this actions, is the creation of a new 
epicenter, far removed from the current locations of the 
disease.
    So, for example, Oregon. If White-Nose Syndrome should 
suddenly show up there as a result of a human transmission, and 
so that is how we are measuring success. We have not seen that, 
and we know that the bats themselves are going to be capable of 
transmitting the disease and moving it increasingly westward 
than south, but we have not yet seen a major jump, which has 
been potentially signs of the effectiveness of the policy.
    Ms. Bordallo. All right. So your answer then is you really 
don't know if there has been a decline. Is that what I am 
getting at here?
    Mr. Coleman. A decline in the transmission of the disease?
    Ms. Bordallo. Yes, recognizing that there are more bats 
infected with the disease since the closure.
    Mr. Coleman. Well, we do know that it has been spreading, 
and that there has been an increase in the numbers of bats that 
are infected.
    Ms. Bordallo. So even with the closure of the caves then, 
it has been increasing?
    Mr. Coleman. Yes, the bats themselves are able to move the 
disease.
    Ms. Bordallo. All right. Then how successful have you been 
with closing the private land, the caves that are on the 
private lands? Do you meet a lot of resistance from the private 
landowners in closing the caves?
    There is a group of people that are out there for 
recreational activity looking at caves, and so I just wonder 
could you give me some idea? Are you coming up with resistance 
to closing the caves on private lands?
    Mr. Coleman. Yes, I would say there is some resistance to 
that. There are people who are concerned about the loss of 
revenue as we have heard, and about the loss of recreational 
opportunities due to the closures of caves.
    The Fish and Wildlife Service's position has been that this 
is the scientifically justifiable route to take, and the best 
thing to do to protect our bat species, and that is why we have 
recommended it.
    Ms. Bordallo. All right.
    Mr. Coleman. I would refer to Dr. Gassett to specifically 
talk about the State of Kentucky.
    Dr. Gassett. Yes, Madam. In Kentucky on private lands, we 
have identified 80 private landowners that have what we 
consider significant bat habitat, and we sent letters to all of 
them to ask them to voluntarily close their caves, and only 
three refused, and so 77 of those 80 complied with the 
voluntary closure request.
    Ms. Bordallo. All right. So that is in Kentucky, right?
    Dr. Gassett. In Kentucky, correct.
    Ms. Bordallo. What about the other states?
    Dr. Gassett. I don't have any data on the other states.
    Ms. Bordallo. All right. I just want to get an idea of 
closing the caves and what resistance we are getting.
    Mr. Coleman. Well, each state has come up with their own 
response plan, and many states I should say, and not everyone 
has one. In those response plans, they treat this issue 
differently based on whatever their priorities are in that 
state.
    So some states, like Kentucky, have seen a lot of success 
in outreach with the public, and private landowners, and some 
states have not seen fit to close caves as a response to White-
Nose Syndrome, and others have chosen a medium ground where 
they posed partial closures, but not close to all the sites, 
and it really depends on the state, because that is how they 
directed it to private landowners.
    Ms. Bordallo. Are all the states cooperating with advising 
these recreational activists that visit the caves about the 
situation, and the risks that they are taking?
    Mr. Coleman. Well, again, each state has chosen a different 
approach to this, and so some states have been in favor of cave 
closures to control human transmission.
    Ms. Bordallo. But even if they are not closed, are there 
signs that you are entering this at your own risk?
    Mr. Coleman. Well, again, the states have--it is up to 
their jurisdiction to put up signage and that sort of thing. So 
everybody handles it a little bit differently, and again there 
are several states who have interacted and several who have 
not.
    Ms. Bordallo. All right.
    Mr. Youngbaer. If I might pick up on that question. This 
varies very widely. State agencies and Federal agencies have 
varying authorities over lands that they own or control, but 
very little over private land ownership.
    You take a state like Tennessee, which has over 14,000 
known caves, or Missouri, which has over 6,000 known caves, the 
vast majority are on private lands. Therefore, unless there is 
an Endangered Species present, and not subject to any 
government authority, all that can be done is to suggest.
    There are many people who visit these caves, and 
landowners, private landowners, have private property rights, 
and tend to be a little weary of governments, and there are 
iterations of that all across the country.
    People who visit caves are not just members of the National 
Speleological Society, but you have rock hounds, geocachers, 
scout groups, church groups, college outing clubs, and just 
locals, who know that the hole in the ground has been there for 
a couple of hundred years, and every Tom, Dick, and Harry in 
town has their signature up in the signature room in the back, 
and that is where you go to cool off in the summer heat.
    These are not closed in a physical sense. These are closed 
by administrative orders in most cases on even the government 
lands. So, therefore, the bats are free to come and go, and 
transmit this disease.
    And I think that is why Tom Aley, who I quoted in my 
testimony, basically says that this is like putting a fire line 
up for only five percent. It simply does not work in containing 
this disease.
    Ms. Bordallo. Thank you very much. You made it very clear.
    Dr. Fleming. Thank you. Mr. Wittman, from Virginia.
    Mr. Wittman. Thank you, Mr. Chairman, and I wanted to thank 
the panel members for joining us today. It is a very 
interesting discussion, and a very timely topic. We have heard 
in the past that the population of bats--and I am assuming 
overall--has been affected by a reduction in population of an 
estimate of about a million.
    I was wondering if you could give us what today's estimate 
is with the reduction in bat populations by this fungus? If you 
could give us some indication about which species might be most 
affected by this, and you had alluded to some of the species 
that are not affected by it.
    But I would like to learn a little bit more about which 
species are, and is there a likelihood that any species would 
become extinct by this? We have talked about population 
dynamics, and some homeostasis being reached by bat populations 
in relation to response to this particular fungus, but is there 
one particular species, like the little brown bat, that could 
go extinct?
    And I will leave it up to which panel members are most 
qualified to answer that question.
    Mr. Coleman. Which species is most affected?
    Mr. Wittman. Yes. Well, let's start with the question about 
what are the current numbers, as far as the total bat 
populations that are deceased based on an exposure to this 
disease, and current numbers, and your best estimate?
    Mr. Coleman. The estimate that we generated before of over 
a million bats was based on approximation of an unknown number 
of bats, and the data that we had to show known declines in 
select known sites where data existed before and after White-
Nose Syndrome arrived.
    So it is actually very difficult to come up with a total 
number of bats when we didn't know what the total population 
looked like prior to White-Nose Syndrome. We are currently 
working on a way to come up with a new estimate for that, but 
what we can report on are known declines.
    Again, in sites where we have pre-and-post White-Nose 
Syndrome data, and as many have quoted here, we are looking at 
numbers that range from about 60 percent to about 100 percent 
decline in bat populations at specific sites, and on a 
statewide basis, the numbers are consistent in affected states 
that have been infected for multiple years exceeding 80 percent 
in total populations by species.
    So the number as I believe Nina mentioned earlier is likely 
much higher than one million bats, but we don't know the answer 
to that right now. We are working on it. The extinction, we 
have a modeling project that the Service funded a few years 
ago.
    It was published in the Journal of Science that showed the 
likelihood of the extirpation of little brown bats in the 
Northeast within the next 16 years based on the declines that 
we were seeing, and actually the declines have been exceeding 
the values that they used for that 16 year estimate.
    So we could be looking at something much sooner than that 
for little brown bats, for example, which were up until now the 
most common bat in the Northeast. So there is a real potential, 
at least within the current range of White-Nose Syndrome, that 
that bat could disappear.
    There are other species that are likewise affected. The 
Tri-Colored Bat, and the Northern Long Ear Bat, have also shown 
very grave declines as a result of White-Nose Syndrome.
    Mr. Wittman. All right. Let me ask this. I know that The 
Smithsonian Conservation and Research Center has allocated some 
dollars to essentially establish a captive population of 
Virginia Long Ear Bats.
    Can you tell us what the--or does anybody know what the 
current state of that particular effort is, and what may be the 
long term impact of that in relation to addressing this 
particular disease across all bat populations?
    Mr. Coleman. We did initiate a program with The Smithsonian 
Institute a few years ago to look at captive propagation needs 
for the Virginia big-eared bat. They brought in 40 animals in 
2010 to explore what it would take to house them.
    And this gets to some of the things that came up earlier 
about ways that we can look at this from a conservation 
standpoint, and how to care for bats after White-Nose Syndrome 
goes through.
    So insectivorous bats are notoriously difficult to maintain 
in captivity. There are only a few instances of certain species 
that have been successfully kept in captivity with the idea of 
propagation completely aside, and with very little success in 
propagating, or even keeping them in captivity.
    So we initiated that program to look at what it might take 
to house Virginia big-eared bats in captivity, and at the time 
White-Nose Syndrome was basically on the doorstep of West 
Virginia.
    We didn't know how that species was going to respond to the 
presence of the fungus. We anticipated the worst and thought 
that since there are very few sites that house major portions 
of that population, if White-Nose Syndrome arrived, we 
anticipated that it potentially could have wiped them out.
    There are only some 20,000 individuals alive as far as we 
know at this point. In that program, most of those bats did die 
over time, but it was a successful program, and we did learn a 
considerable amount through that exercise.
    There are still two bats remaining in captivity. They were 
successfully kept over the winter of this past year, and they 
came out of hibernation, and they are eating very well I am 
told, and are actually doing quite well in captivity. The 
question we are having now is what do we do with those last 
two, and we are working on that issue.
    Mr. Wittman. Very good. Thank you, Mr. Chairman.
    Dr. Fleming. I thank the gentleman. I have a couple of more 
questions. Are there other questions? OK. Well, I will go ahead 
and ask a couple of questions, and then open it up for the 
Ranking Member.
    You know, whenever you have an epidemic such as this among 
human or animal populations, you tend to find that there is a 
subpopulation, and that for whatever reason is resistant to 
that disease, or they at least survive.
    And so my question is are you seeing that among some, if 
not all, of the species of bats? Certainly that would give us 
some encouragement in terms of the possibility of extinction, 
and certainly over time they could reproduce as a resistant 
population.
    And ultimately evolve themselves into healthy, and hearty, 
and resistant to White-Nose, which is kind of what I was 
touching on when I mentioned about Europe and some of the other 
species. So I would love to hear what you have to say about 
that.
    Dr. Blehert. So, yes, and I don't have access to all of the 
detailed site specific data with regard to population 
persistence, and while there are reports of some populations 
disappearing, there are reports of others that decline, and 
then maintain a smaller number of animals.
    And so I believe that there are a number of means by which 
that could happen, either by the development of an 
immunological resistance, or also by selection for behavioral 
traits that provide certain bats with the ability to weather 
this disease, even in the absence of their immune system, which 
is known to become naturally suppressed during hibernation, and 
may be part of the problem that led to the emergence of this 
disease, and is one of the major problems in managing it.
    So as I said previously, we may see rather than populations 
disappearing, that our bat population demographics become more 
akin to those that we see today in Europe; small populations 
persisting more in isolation, as opposed to massive caves full 
of millions of bats.
    Dr. Fleming. Well, is that to say that maybe this fungus, 
or some other, may be the reason why we see a little different 
behavior between the populations in Europe, versus here, that 
may be--that what is happening there is really the fact that 
whatever is going on happened there first, and really instead 
of seeing extinction, we will just see smaller and more 
isolated groups? I think that is kind of what you are 
suggesting?
    Mr. Coleman. Yes, it is very possible, and one of our 
projects is doing a molecular forensic analysis of rates of 
genetic change in fungal isolates from bats from North America 
and Europe.
    This work is being done by the laboratory with Paul Keim, 
who works for the FBI, for example, to do molecular forensic 
work back at the beginning of 2000 with regard to anthrax 
letters, for example.
    But given enough isolates, we may actually be able to 
construct a history with regard to how long the fungus has been 
in Europe, and how it has dispersed over Europe, even to the 
point of pinpointing a source for how it came to the United 
States. So that will provide us some more information about 
that natural history.
    Dr. Fleming. All right. Now, when you talk about humans 
being the potential vector of this, I don't think you are 
really meaning that somehow that they have become temporary 
hosts, but perhaps on their shoes, or on some of their gear, 
and that sort of thing?
    Mr. Coleman. Yes, it would be inadvertent mechanical 
transmission.
    Dr. Fleming. And so is there a treatment perhaps for that 
equipment that we could educate our backpackers, and our cave 
explorers, that when you finish your work in one cave that you 
put your gear through a certain treatment process that may be 
very helpful in this?
    Mr. Coleman. Yes, I absolutely think that is the case. 
There are certainly elements to the White-Nose Syndrome 
response that is beyond our control, and others that are within 
our means, and those within our means include regulatory 
measures, like site closures, decontamination procedures, which 
the Fish and Wildlife Service has instituted and recommended, 
as well as dedicated gear recommendations.
    And these are the same procedures that are used to control 
the spread of agricultural or human diseases, and serve as the 
very basis for why when you come back from another country the 
customs agent asks you if you visited a farm.
    Dr. Fleming. Mr. Youngbaer, is this a methodology that we 
could pursue that would allow us to begin opening up our caves 
perhaps?
    Mr. Youngbaer. Well, very much so, and in fact, we have 
been very much involved working with Fish and Wildlife in the 
development of those protocols, and one of our scientists, a 
leading microbiologist at Northern Kentucky University, has 
been very much involved with testing materials, and treatments, 
and refining those protocols, which have existed for two-and-a-
half or three years.
    We promote those through training videos. There is an 
element of safety for people because you are involving 
chemicals in the treatment of your gear and equipment, and this 
goes for biologists who were working directly in the handling 
of bats, and some of the surveillance and monitoring, as well 
as people who visit caves.
    But I can tell you that that is probably limited to the 
organized caving community who is within this loop of knowledge 
and network. It is very difficult to get it out to a lot of the 
other publics.
    I serve as the vice president of the Northeastern Cave 
Conservancy, and we have a cave with a kiosk which has White-
Nose Syndrome protocols that we educate literally thousands of 
youth group visitors, camps, that come and visit these caves.
    They learn safe caving techniques, and they learn about 
White-Nose Syndrome, and they learn about the potential of 
human transport. I think that we all admit that there is a 
potential for human transport, but there is little evidence 
that that has actually occurred.
    Dr. Fleming. What is the nature of the treatment?
    Mr. Youngbaer. Well, for example, you need to remove and 
wash, typically with Woolite, which is a very excellent 
surfactant to remove all organic material, because the bleach 
or Lysol IC compound that you then use interacts with the 
organics, and so you need to make sure that they are clean 
before they are then treated.
    There are a range of different treatments. Some are 
available in the laboratories, and some you can do in the 
field, and some of them are boiling water for 15 minutes will 
kill the fungus, and then you rinse.
    Depending on whether it is soft material or hard material, 
there are different ways that you can treat that. We have major 
regional caving events. We set up large decon stations, and we 
do that at our national conventions. We do that at regional 
events.
    That is something that we have been doing for years, and 
have developed in concert with U.S. Fish and Wildlife.
    Dr. Fleming. Would this open the way perhaps to a 
permitting process, and therefore allowing only those people 
who have a permit that perhaps paid for such permit, and have 
demonstrated knowledge, and perhaps have been through a course, 
so that we would only have people who are properly trained in 
these decontamination processes that would have access to 
caves?
    Mr. Youngbaer. In fact, in a number of the government-owned 
and -managed sites, that is the current practice. If you are 
doing a permit on a BLM cave, or National Park cave, or Forest 
Service cave, that is required, as it is today.
    Dr. Fleming. OK. Very good.
    Dr. Chavarria. Mr. Chairman, may I add something?
    Dr. Fleming. Sure.
    Dr. Chavarria. Within the Department of the Interior and 
the National Park Service, they have a lot of recreational 
caves that are visited by millions of people every year. So, 
through education, which is a big component of the national 
plan, we are already educating a lot of the people that are 
visiting these caves.
    And we have control of who comes in and out of the caves, 
because they pay for a ticket, and so education, not only with 
the cave experts, but also with the general public, has become 
a critical piece of the plan.
    Dr. Fleming. Right. Thank you, and I yield to the Ranking 
Member.
    Ms. Bordallo. Thank you, Mr. Chairman. I just have a couple 
of questions. First, for Dr. Boyles. If some bat species are 
not affected by the White-Nose Syndrome, or even are thriving 
in its presence, then why should we worry about other bat 
species dying?
    Dr. Boyles. I guess the simplest answer to that is that not 
all species are equivalent. If we just talk about the 
agricultural impacts, each species has a different diet. Some 
of them are moth specialists, and some are beetle specialists.
    So conserving the moth specialist does little to affect the 
beetle populations, for instance, and each species is 
different. And specifically regarding White-Nose, I think the 
important part is the species that is being affected, and that 
is the little brown bat as we have heard.
    So we are seeing huge collapses in a very common species. 
The species that were mentioned a bit are doing well, and are 
all endangered or have small populations anyway. So we are not 
even seeing a one-to-one replacement of individuals from the 
common species, a common species crashing, and the not so 
common species doing well as of right now.
    Ms. Bordallo. A followup. Can you comment on the role that 
insect eating bats play in the ecosystem, and if other animals 
would be able to fill this role?
    Dr. Boyles. Sure. So, bats are the primary and in many 
cases the only predator of nighttime flying insects, many of 
which are pests. Even the ones that aren't pests to humans, are 
still important in ecosystems.
    Unfortunately, there really isn't any other natural 
alternative to bats. The are a few birds that are nocturnal 
insectivorous, Whippoorwills and things of that sort. But they 
tend to be rather uncommon.
    They are much more limited in their foraging and will not--
most likely will not be able to replace the bats, no.
    Ms. Bordallo. Thank you. And, Ms. Fascione, are there 
examples of caves where bats are the main attraction, and what 
might be the economic impact if these bats died from the 
syndrome?
    Ms. Fascione. Yes, there are many examples of caves where 
bats are the main attraction. Carlsbad Caverns National Park is 
perhaps the best known example, where millions of people have 
been educated and have come to appreciate bats over the years.
    But in these White-Nose Syndrome-infected areas, there are 
many cases where--and as in my home state of Pennsylvania, they 
have many, many caves that even advertise their visits. The 
commercial caves, state-owned caves, and the Federal caves will 
advertise for bats.
    And so really they are small business owners, and families, 
that run some of these commercial caves that rely on the bats 
to bring in tourists.
    Ms. Bordallo. What is the percentage of caves that are 
problematic generally, the syndrome is there, and versus those 
that are free of any of this fungus or disease?
    Ms. Fascione. Well, researchers are monitoring this, and--
--
    Ms. Bordallo. I mean throughout the United States.
    Ms. Fascione. Right. It is being monitored county by 
county, and it is spreading. So even though, for example, 
Pennsylvania went through the White-Nose Syndrome a few years 
ago, each year, and in fact in Maryland, this year there were 
additional counties that were impacted.
    So I don't know, and I don't know if anybody has a 
percentage of the caves.
    Ms. Bordallo. A percentage of all the caves throughout the 
United States and Canada that are affected.
    Mr. Coleman. I can't answer that question, but what I can 
tell you is that we have 190 sites that are known to be 
affected at this time, and there are thousands and thousands of 
sites.
    Ms. Bordallo. So it is a small percentage, but still 
spreading?
    Mr. Coleman. Yes, that's true, but one of the other things 
that is important to know is that many of these sites have 
never been visited. We don't know where all the hibernacula 
are, and we don't know if--well, we see and diagnose White-Nose 
Syndrome in a cave based on the bat populations that are there, 
but as Dr. Blehert said earlier, the fungus could be in these 
sites. And it could serve as an environmental reservoir for the 
infection, and even though bats aren't there in the wintertime, 
and if they only use it transiently, or if people come in and 
pick it up from those sites and transport it.
    Ms. Bordallo. Well, Mr. Chairman, I don't have any further 
questions, but I do think that we have to proceed with finding 
a solution to this problem.
    Dr. Fleming. I quite agree, and that concludes our 
questions today. We have had a great panel, and very 
informative, and we certainly thank you for that. Members of 
the Subcommittee may have additional questions for the 
witnesses that they may want to submit in writing.
    The hearing record will be open for 10 days to receive 
these responses. Finally, I want to thank the Members and Staff 
for their contributions to this hearing. If there is no further 
business, and without objection, this Subcommittee stands 
adjourned. Thank you.
    [Whereupon, at 11:38 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

                 Peer-Reviewed Published Papers on or 
                Directly Related to White Nose Syndrome

                              Compiled by

                         Thomas H. Kunz, Ph.D.

         Director, Center for Ecology and Conservation Biology

                         Department of Biology

                           Boston University

                            Boston, MA 02215

                           Date: 12 June 2011

Published (and In Press) Research on or Related to White-Nose Syndrome 
        Supported by the Department of Interior (National Park Service, 
        Office of Surface Mining, U.S. Forest Service, and U.S. Fish 
        and Wildlife Service, U.S. Geological Survey)
1. Blehert, D. S., A. C. Hicks, M. Behr, C. U. Meteyer, B. M. 
        Berlowski-Zier, E. L. Buckles, J. T. H. Coleman, S. R. Darling, 
        A. Gargas, R. Niver, J. C. Okoniewski, R. J. Rudd, and W. B. 
        Stone. 2009. Bat white-nose syndrome: an emerging fungal 
        pathogen? Science, 323:227.
2. Blehert, D.S. J.M. Lorch, A.E. Ballmann, P.M. Cryan, and C.U. 
        Meteyer. 2011. Bat White-Nose Syndrome in North America. 
        Microbe, 6: 267-273.
3. Cryan, P.M., C. U. Meteyer, J.G. Boyles, and D.S. Blehert. 2010. 
        Wing pathology of white-nose syndrome in bats suggests life-
        threatening disruption of physiology. BMC Biology, 8:135-143.
4. Foley, J., D. Clifford, K. Castle, P.M. Cryan, and R.S. Ostfeld. 
        2011. Investigating and Managing the Rapid Emergence of White 
        Nose Syndrome, a Novel, Fatal, Infectious Disease of 
        Hibernating Bats. Conservation Biology, 25:223-231.
5. Gargas, A., M.T. Trest, M. Christensen, T.J. Volk, and D.S. Blehert. 
        2009. Geomyces desctructans sp. nov. associated with bat white-
        nose syndrome. Mycotaxon, 108:147-154.
6. Lorch, J.M., A. Gargas, C.U. Meteyer, B.M. Berlowski-Zier, D.E. 
        Green, V. Shearn-Bochsler, N.J. Thomas, and D.S. Blehert. 2010. 
        Rapid polymerase chain reaction diagnosis of white-nose 
        syndrome in bats. Journal of Veterinary Diagnostic 
        Invesgigation, 22:224-230.
7. Meteyer, C., E. Buckles, D. Blehert, A. Hicks, D. Green, V. Shearn-
        Bochsler, N. Thomas, A. Gargas, and M. Behr. 2009. 
        Histopathologic criteria to confirm white-nose syndrome in 
        bats. Journal of Veterinary Diagnostic Investigation 21:411-
        414.
Published (and In Press) Research on White-Nose Syndrome Supported by 
        U.S. Academic Institutions, Non-Government Organizations (BCI, 
        NSS, Eppley Foundation) and Department of Interior (OSM, USFWS, 
        USGS)
1. Kunz, T.H., J.T. Foster, W.F. Frick, A.M. Kilpatrick, G.F. 
        McCracken, M.S. Moore, J.D. Reichard, D.M. Reeder, and A.H. 
        Robbins. 2011. White-nose syndrome: an overview of ongoing and 
        future research needs. Pp. 195-209. In: Proceedings of 
        Protection of Threatened Bats at Coal Mines: A Technical 
        Interactive Forum (K.C. Vories and A.H. Caswell, eds.). USDOI 
        Office of Surface Mining and Coal Research Center, Southern 
        Illinois University, Carbondale, Illinois.
2. Lindner, D.L., A. Gargas, J.M. Lorch, M.T. Banik, J. Glaeser, T.H. 
        Kunz, and D.S. Blehert. 2011. DNA-based detection of the fungal 
        pathogen Geomyces destructans in soils from bat hibernacula. 
        Mycologia, 103: 241-246.
3. Waldien, D.L., T.H. Kunz, and C. Johnson-Hughes. 2011. Successful 
        partnerships for the effective management, research and 
        conservation of bats. In: Vories, K.C. and A.H. Caswell. (eds.) 
        Proceedings of Protection of Threatened Bats at Coal Mines: A 
        Technical Interactive Forum. USDOI Office of Surface Mining and 
        Coal Research Center, Southern Illinois University, Carbondale, 
        Illinois.
Published (and In Press) Research on White-Nose Syndrome Funded by 
        United States, European, and Canadian Academic Institutions, 
        Non-Government Organizations (Bat Conservation International, 
        The Eppley Foundation, National Speleological Society, Morris 
        Animal Foundation, and The Woodtiger Fund).
1. Barlow, A, S. Ford, R. Green, C. Morris, and. S. Reaney. 2009. 
        Investigations into suspected white-nose syndrome in two bat 
        species in Somerset. Veterinary Record, 165:481-882.
2. Boyles, J. and C. Willis. 2010. Could localized warm areas inside 
        cold caves reduce mortality of hibernating bats affected by 
        white-nose syndrome? Frontiers in Ecology and the Environment, 
        8: 92-98.
3. Boyles, J.G., P.M. Cryan, G.F. McCracken, and T.H. Kunz. 2011. 
        Economic importance of bats in agriculture. Science, 332: 41-
        42.
4. Boyles, J.B., P.M. Cryan, G.F. McCracken, and T.H. Kunz. 2011. 
        Toward a more robust understanding of the economic importance 
        of bats. Science (in press).
5. Bratsch S, N. Wertx, K. Chaloner, T.H. Kunz, and J.E. Butler. 2011. 
        The little brown bat, M. lucifugus, displays a highly diverse 
        V(H), D(H) and J(H) repertoire but little evidence of somatic 
        hypermutation. Developmental and Comparative Immunology, 35: 
        421-430.
6. Chaturvedi, V., and S. Chaturvedi. 2011. What is in a name? A 
        proposal to use geomycosis instead of White Nose Syndrome (WNS) 
        to describe bat infection caused by Geomyces destructans. 
        Mycopathologia. 171:231-233.
7. Chaturvedi, V., D. J. Springer, M. J. Behr, R. Ramani, X. Li, M. K. 
        Peck, P. Ren, D. J. Bopp, B. Wood, W. A. Samsonoff, C. M. 
        Butchkoski, A. C. Hicks, W. B. Stone, R. J. Rudd, and S. 
        Chaturvedi. 2010. Morphological and molecular characterizations 
        of psychrophilic fungus Geomyces destructans from New York bats 
        with white-nose syndrome (WNS). PLoS ONE, 5:e10783.
8. Courtin, F., W. Stone, G. Risatti, K. Gilbert, and H. Van 
        Kruiningen. 2010. Pathologic findings and liver elements in 
        hibernating bats with white-nose syndrome. Veterinary Pathology 
        Online, 47:214.
9. Dzal, Y., L. P. McGuire, N. Veselka, and M.B. Fenton. 2010. Going, 
        going, gone: the impact of white-nose syndrome on the summer 
        activity of the little brown bat (Myotis lucifugus). Biology 
        Letters, 23: 392-394.
10. Fuller, N.W., J.D. Reichard, M.L. Nabhan, S.R. Fellows, L.C. Pepin, 
        and T.H. Kunz. 2011. Individual recovery of little brown myotis 
        (Myotis lucifugus) from wing damage associated with white-nose 
        syndrome. EcoHealth (in press).
11. Francl, K.E., D.W. Sparks, V. Brack, Jr, and J. Timpone. 2011. 
        White-nose syndrome and wing damage index scores among summer 
        bats in the northeastern United States. Journal of Wildlife 
        Diseases, 47:41-8.
12. Frick, W.F., D.S. Reynolds, and T.H. Kunz. 2010. Influence of 
        climate and reproductive timing on demography of little brown 
        myotis (Myotis lucifugus). Journal of Animal Ecology, 79:128-
        136.
13. Frick, W., J. Pollock, A. Hicks, K. Langwig, D. Reynolds, G. 
        Turner, C. Butchkoski, and T.H. Kunz. 2010. An emerging disease 
        causes regional population collapse of a common North American 
        bat species. Science, 329:679-682.
14. Hallam, T. G. and G. F. McCracken. 2010. Management of the 
        panzootic white-nose syndrome through culling of bats. 
        Conservation Biology,
15. Kannan, K., S.H. Yun, R.J. Rudd, M. Behr. 2010. High concentrations 
        of persistent organic pollutants including PCBs, DDT, PBDEs and 
        PFOS in little brown bats with white-nose syndrome in New York, 
        USA. Chemosphere, 80:613-618.
16. Kunz, T.H., E. Braun de Torrez, D.M. Bauer, T.A. Lobova, and T.H. 
        Fleming. 2011. Ecosystem services provided by bats. Pp. 1-38. 
        In: The Year in Ecology and Conservation (R.A. Ostfeld and W.H. 
        Schlesinger, eds). Annals of the New York Academy of Sciences, 
        Wiley-Blackwell, New York.
17. Li, L. J.G. Victoria, C. Wang, M. Jones, G.M. Fellers, T.H. Kunz, 
        and E. Delwart. 2010. Bat guano virome: predominance of dietary 
        viruses from insects and plants plus novel mammalian viruses. 
        Journal of Virology, 84:6955-6965.
18. Martinkova N., P. Backor, T. Bartonicka, P. Blazkova, J. Cerveny, 
        L. Falteisek, J. Gaisler, V. Hanzel., D. Horacek, Z. Hubalek, 
        H. Jahelkova, M. Kolarik, L. Korytar, A. Kubatova, B. Lehotska. 
        R. Lehotsky, R.K. Lucan, O. Majek, J. Mateju, Z. Rehak, J. 
        Safar, P. Tajek, E. Tkadlec, M. Uhrin, J. Wagner, D. 
        Weinfurtova, J. Zima, J. Zukal, and I. Horacek 2010. Increasing 
        incidence of Geomyces destructans fungus in bats from the Czech 
        Republic and Slovakia. PLoS ONE, 5, e13853. doi:10.1371/
        journal.pone.0013853.
19. Moore, M.S., and T.H. Kunz. 2011. White-nose syndrome: a fungal 
        diseases of North American hibernating bats. In: Encyclopedia 
        of Caves (D.C. Culver and W.B. White, eds.). Academic Press, 
        New York.
20. Puechmaille, S. J., P. Verdeyroux, H. Fuller, M. Gouilh, M. 
        Bekaert, and E. C. Teeling. 2010. White-nose syndrome fungus 
        (Geomyces destructans) in Bat, France. Emerging Infectious 
        Diseases, 16:290-293.
21. Puechmaille, S. J., G. Wibbelt, V. Korn, H. Fuller, F. Forget, K. 
        M. Holdorfer, A. Kurth, W. Bogdanowicz, C. Borel, and T. Bosch. 
        2011. Pan-European distribution of white-nose ayndrome fungus 
        (Geomyces destructans) not associated with mass mortality. PLoS 
        ONE, 6:e19167.
22. Puechmaille, S.J., W.F. Frick, T.H. Kunz, P.A. Racey, C.C. Voigt, 
        G. Wibbelt, E.C. Teeling, and the White-Nose Syndrome 
        Consortium. 2011.White-nose syndrome: is this emerging disease 
        a threat to European bats? Trends in Ecology and Evolution (in 
        press).
23. Reeder, D.M., and G.G. Turner. 2008. Working together to combat 
        'White-Nose Syndrome' in Northeastern U.S. bats; a report of 
        the June 2008 meeting on White-Nose Syndrome held in Albany, 
        N.Y. Bat Research News, 49: 75-78.
24. Reichard, J. D. and T.H. Kunz. 2009. White-nose syndrome inflicts 
        lasting injuries to the wings of little brown myotis (Myotis 
        lucifugus). Acta Chiropterologica, 11:457-464.
25. Reichard, J.D., N.W. Fuller, and T.H. Kunz. 2011. Condition of 
        wings is an important criterion of bat health: A response to 
        Francl et al. Journal of Wildlife Diseases (in press).
26. Storm, J. J. and J. G. Boyles. 2010. Body temperature and body mass 
        of hibernating little brown bats Myotis lucifugus in 
        hibernacula affected by white-nose syndrome. Acta Theriologica, 
        56:123-127.
27. Turner, G.G., and D.M. Reeder. 2009. Update of White-Nose Syndrome 
        in Bats, September 2009. Bat Research News, 50: 47-53.
28. Wibbelt G., A. Kurth, D. Hellmann, M. Weishaar, A. Barlow, M. 
        Veith, J. Pruger, T. Gorfol, L. Grosche, F. Bontadina, U. 
        Zophel H. Seidl, P.M. Cryan, and D.S. Blehert. 2010. White-nose 
        syndrome fungus (Geomyces destructans) in bats, Europe. 
        Emerging Infectious Diseases, 16: 1237-1242.
29. Wilder, A.P, W.F. Frick, K.E. Langwig, and T.H. Kunz. 2011. Risk 
        factors associated with white-nose syndrome among hibernating 
        bat colonies. Biology Letters. doi: 10.1098/rsbl.2011.0355.

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
